<html>
<title> - PREPARING FOR 2020: HOW ILLINOIS IS SECURING ELECTIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



         PREPARING FOR 2020: HOW ILLINOIS IS SECURING ELECTIONS

=======================================================================

                             FIELD HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 15, 2019

                               __________

                           Serial No. 116-40

                               __________

       Printed for the use of the Committee on Homeland Security
                                     






              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
40-456 PDF                 WASHINGTON : 2020 
















                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           Van Taylor, Texas
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Emanuel Cleaver, Missouri            Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Lauren Underwood, a Representative in Congress From 
  the State of Illinois:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5

                               Witnesses

Mr. Matt Masterson, Senior Cybersecurity Advisor, Cybersecurity 
  and Infrastructure Security Agency, Department of Homeland 
  Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Steven S. Sandvoss, Executive Director, Illinois Board of 
  Elections:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Ms. Robin M. O'Connor, Clerk, Lake County, Illinois:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19
Ms. Elizabeth L. Howard, Counsel, Democracy Program, Brennan 
  Center for Justice:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22

 
         PREPARING FOR 2020: HOW ILLINOIS IS SECURING ELECTIONS

                              ----------                              


                       Tuesday, October 15, 2019

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                        Gurnee, IL.
    The committee met, pursuant to notice, at 10:08 a.m., in 
the Village of Gurnee Council Chambers, Gurnee Village Hall, 
325 N. O'Plaine Road, Gurnee, Illinois, Hon. Bennie G. Thompson 
(Chairman of the committee) presiding.
    Present: Representatives Thompson and Underwood.
    Also present: Representative Casten.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    I ask unanimous consent that Mr. Casten be permitted to 
participate in today's hearing. Without objection.
    Good morning. Let me apologize for my accent. I am from 
Mississippi.
    [Laughter.]
    Chairman Thompson. It gives everybody consternation because 
they say I haven't heard somebody talk like that in a long 
time. So trust me, the speed of my voice has nothing to do with 
my brain.
    [Laughter.]
    Chairman Thompson. I am absolutely proud to be here. As I 
said to Congresswoman Underwood earlier, I spent the summers of 
my college education in Chicago, Illinois working because that 
is how I was able to finance my college education in 
Mississippi because Illinois paid far better wages than 
Mississippi.
    So I have come back and I thank you for making me what I am 
today because of your generosity.
    But I would also like to thank Chairman--Vice Chair 
Underwood for inviting committee Members to Illinois to hear 
State and local perspectives on election security.
    Since she arrived in Congress in January, the Vice Chair 
has demonstrated a strong commitment to raising the bar on 
Federal efforts to improve election security at the State and 
local level.
    Too often well-intentioned officials in Washington do not 
have a complete understanding of how the Federal Government can 
best assist State and local officials in their mission.
    But Ms. Underwood has fought to make sure that the boots on 
the ground have the resources they need and a seat at the 
table, which is why we are having this field hearing today.
    The Vice Chair has been a valued leader on the Homeland 
Security Committee, and on election security in particular I 
want to thank her for her continued efforts to hold the folks 
in Washington accountable on behalf of her constituents.
    Election security requires a whole-of-government approach--
Federal, State, and local--effort to protect America's 
elections. It is a National security issue that transcends 
party politics and reaches into the heart of our democracy.
    As we approach the 2020 elections it is critical that we 
work together to protect democracy's most sacred tradition: 
Free and fair elections.
    Last Congress, I co-chaired the Congressional Task Force on 
Election Security and met with election security experts, State 
election officials, and National security experts to assess 
vulnerabilities in election infrastructure and determine how to 
address them.
    The task force published a report in February 2018 that 
included 10 recommendations and introduced legislation to 
implement them.
    That legislation, Election Security Act, was included in 
H.R. 1, the For the People Act, which passed the House in March 
of this year.
    Unfortunately, the Senate has yet to act on that or any 
other meaningful election security legislation. Nevertheless, 
since 2016 progress has been made toward more secure elections 
at State and local levels.
    The Department of Homeland Security and Election Assistance 
Commission have built stronger, more effective partnerships 
with State and local officials.
    States like Illinois are at the forefront of that effort 
and have led the way. From improvements in the Illinois Century 
Network to the Cyber Navigator Program, the State has made 
smart investments in election security capabilities that makes 
it harder for adversaries to meddle in the 2020 elections.
    But continued election security efforts cost money and I 
imagine that State and local election officials here struggle 
with the same budget demands as their counterparts do in my 
district in Mississippi.
    That is why I am glad to be here today to learn from all of 
you what you need from us to help you continue the important 
work you do to secure elections. The Federal Government, 
especially Congress, must understand the resource constraints 
of local election officials and partner with them to address 
vulnerabilities to election infrastructure through grants and 
services.
    Local election officials are on the front line of securing 
our elections and your success depends on the resources and 
support you receive from Federal and State government.
    The intelligence community has made clear the threats to 
our elections persist. Acting Director of National Intelligence 
Joseph Maguire told Congress that we should expect adversaries 
and strategic competitors to refine their capabilities and add 
new tactics as they learn from each other's experiences in 
advance of the 2020 elections.
    I look forward to hearing from our panel of witnesses today 
about how Illinois is leading the way in securing their 
election critical infrastructure and how Congress and Federal 
agencies can support these efforts to further strengthen our 
elections and protect them from another attack.
    Before I close, I would like to thank the good people of 
Gurnee Village Hall for hosting today's hearing.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                            October 15, 2019
    I would like to thank the committee's Vice Chair, Ms. Underwood, 
for inviting committee Members to Illinois to hear State and local 
perspectives on election security. Since she arrived in Congress in 
January, the Vice Chair has demonstrated a strong commitment to raising 
the bar on Federal efforts to improve election security at the State 
and local level. Too often, well-intentioned officials in Washington do 
not have a complete understanding of how the Federal Government can 
best assist State and local officials in their mission. But Ms. 
Underwood has fought to make sure the boots on the ground have the 
resources they need and a seat at the table, which is why we are having 
this field hearing today. The Vice Chair has been a valued leader on 
the Homeland Security Committee, and on election security in 
particular, and I want to thank her for her continued efforts to hold 
the folks in Washington accountable on behalf of her constituents.
    Election security requires a whole-of-government, Federal, State, 
and local, effort to protect America's elections. It is a National 
security issue that transcends party politics and reaches to the heart 
of our democracy. As we approach the 2020 election, it is critical that 
we work together to protect democracy's most sacred tradition: Free and 
fair elections. Last Congress, I co-chaired the Congressional Task 
Force on Election Security, and met with election security experts, 
State election officials, and National security experts to assess 
vulnerabilities in election infrastructure and determine how to address 
them. The Task Force published a report in February 2018 that included 
10 recommendations and introduced legislation to implement them. That 
legislation, the Election Security Act, was included in H.R. 1, the For 
the People Act, which passed the House in March of this year. 
Unfortunately, the Senate has yet to act on that or any other 
meaningful election security legislation.
    Nevertheless, since 2016, progress has been made toward more secure 
elections at the State and local level. The Department of Homeland 
Security and Election Assistance Commission (EAC) have built stronger, 
more effective partnerships with State and local election officials. 
And States like Illinois are at the forefront of that effort and have 
led the way. From improvements to the Illinois Century Network to the 
Cyber Navigator Program, the State has made smart investments in 
election security capabilities that make it harder for adversaries to 
meddle in the 2020 election. But continued election security efforts 
cost money, and I imagine that State and local election officials here 
struggle with the same budget demands as their counterparts in my 
District in Mississippi. That is why I am glad to be here today to 
learn from all of you what you need from us to help you continue the 
important work you do to secure elections. The Federal Government--
especially Congress--must understand the resource constraints of local 
election officials and partner with them to address vulnerabilities to 
election infrastructure though grants and services.
    Local election officials are on the front lines of securing our 
elections, and your success depends on the resources and support you 
receive from Federal and State governments. The intelligence community 
has made clear the threats to our elections persist. Acting Director of 
National Intelligence, Joseph Maguire, told Congress that we should 
expect ``adversaries and strategic competitors to refine their 
capabilities and add new tactics as they learn from each other's 
experiences'' in advance of the 2020 elections. I look forward to 
hearing from our panel of witnesses today about how Illinois is leading 
the way and securing their critical election infrastructure, and how 
Congress and Federal agencies can support these efforts to further 
strengthen our elections and protect them from another attack.

    Chairman Thompson. With that, I yield back the balance of 
my time and I now recognize the Vice Chair of the full 
committee, the gentlewoman from Illinois, Ms. Underwood, for an 
opening statement.
    Ms. Underwood. Thank you, Mr. Chairman.
    Good morning. Thank you all so much for being here with us 
today. As Vice Chair of the House Committee on Homeland 
Security, I am so thrilled that you joined us as we gaveled in 
this committee's first-ever hearing in the Illinois 14th 
Congressional District.
    I would like to also thank the village of Gurnee for 
hosting the committee's hearing today and my colleague, 
Congressman Casten, for taking part in the hearing. Thank you.
    I would also like to thank Chairman Thompson for holding 
this hearing and joining us all the way from Mississippi, and 
thank you to the panel of experts who--and public servants 
assembled here today. I appreciate the important work that you 
do and I look forward to hearing from each of you.
    I would also like to acknowledge the Members of our 
community who have made time to join us for this important 
conversation and an extra special thank you to Mr. Jacob 
Carlton and his AP Government students that are here from Zion-
Benton Township High School. Thank you for being here today.
    In February of this past year, this committee, led by 
Chairman Thompson, held its first hearing of the 116th Congress 
on defending our democracy by protecting and security our 
Nation's elections.
    U.S. intelligence officials have confirmed that there was 
foreign interference in the 2016 elections. In Illinois, this 
resulted in foreign actors accessing the records of 76,000 
Illinois voters.
    Since then, State and local election officials have been 
working hard to improve election systems and infrastructure. 
But due to limited resources, some have faced challenges to 
upgrading legacy machines and bringing on additional 
cybersecurity personnel.
    Congress has recognized the challenges that come with 
improving decades-old infrastructure and have provided critical 
funding and assistance to States since our State was hacked in 
2016.
    Here in Illinois, State and local election officials have 
worked together to implement a world class Cyber Navigator 
Program to help the State improve its cybersecurity posture and 
to mitigate future attacks.
    This program has allowed our State to hire additional 
cybersecurity personnel to facilitate information sharing and 
provide guidance on best practices to each of the 108 election 
authorities in Illinois.
    The Cyber Navigator Program is a valuable tool for the 
election officials here in Illinois and it is my hope that 
programs such as this can serve as models for other States.
    In addition to the funding provided by Congress, this 
committee has made election security a priority and has put 
forward tough broad policies to secure our elections.
    I am proud that these policies were included in H.R. 1, the 
For the People Act, which we passed in the House in March.
    This is an important package of reforms because it seeks to 
restore integrity in our Government and ensure that each and 
every American can fully participate in our democracy.
    Specifically, it helps protect U.S. elections by improving 
voting system security by requiring the Department of Homeland 
Security to maintain election systems as critical 
infrastructure.
    It also requires regular testing of voting systems and 
provides much-needed resources for States to conduct post-
election audits and upgrade legacy election systems.
    I was also proud to support the fiscal year 2020 House 
Appropriations package which included $600 million for the 
Election Assistance Commission to distribute election security 
grants to bolster State election security efforts.
    These two House-passed measures go a long way to help 
districts like this one, which is operating under a constrained 
budget while trying to do the absolute most to ensure the 
integrity of our elections.
    Now, the 2020 election is right around the corner and 
adversaries are already working to interfere. We don't have 
time to wait. The Senate should immediately pass legislation to 
strengthen our election security.
    As the Chairman stated in our previous election security 
committee hearing, we have made great strides since 2016. But 
we must remain vigilant against bad actors working to undermine 
the beacon of American democracy.
    I hope our discussion today will provide this committee and 
the public with valuable information and resources and 
assistance in preparation for the upcoming elections in 2020.
    The integrity of our elections is essential to the 
preservation of our republic and it is our patriotic duty as 
Americans and my sacred duty as someone elected to represent 
this beautiful community, the Illinois 14th, to ensure that our 
elections are free from foreign interference.
    I look forward to hearing from the witnesses today on the 
progress that has been made here in Illinois, what additional 
work we can do to support our State and local election 
officials, and how we can help other States use Illinois' 
success as a model for their own programs.
    Thank you again for being here today. I am looking forward 
to an educational and productive hearing, and I yield back.
    [The statement of Honorable Underwood follows:]
                Statement of Honorable Lauren Underwood
                            October 15, 2019
    Good morning, welcome, and thank you all so much for being here 
today!
    As vice chair of the House Committee on Homeland Security, I am so 
thrilled you joined us as we gavel in this committee's first-ever 
hearing in Illinois's 14th Congressional District.
    I would like to thank the Village of Gurnee for hosting the 
committee's hearing today and my colleague, Representative Casten, for 
taking part in today's hearing.
    I would also like to thank Chairman Thompson for holding this 
hearing and for joining us all the way from Mississippi.
    Thank you to the panel of experts and public servants assembled 
today. I appreciate the important work you do, and I look forward to 
hearing from each of you.
    I would also like to acknowledge the members of our community who 
have made time to join us for this important conversation . . . and a 
special thank you to Mr. Jacob Carlson and his AP Government students 
from Zion Benton Township High School for being here today.
    In February of this year, this committee, led by Chairman Thompson, 
held its first hearing of the 116th Congress on defending our democracy 
by protecting and securing our Nation's elections.
    U.S. intelligence officials have confirmed there was foreign 
interference in the 2016 elections. In Illinois, this resulted in 
foreign actors accessing the records of 76,000 Illinois voters.
    Since then, State and local election officials have been working 
hard to improve election systems and infrastructure, but due to limited 
resources, some have faced challenges in upgrading legacy machines and 
additional hiring of cybersecurity personnel.
    Congress has recognized the challenges that come with improving 
decades-old election infrastructure and has provided critical funding 
and assistance to States since our State was hacked in 2016.
    Here in Illinois, State and local election officials have worked 
together to implement the world-class Cyber Navigator Program to help 
the State improve its cybersecurity posture and mitigate future 
attacks.
    This program has allowed the State to hire additional cybersecurity 
personnel to facilitate information sharing and provide guidance on 
best practices to each of the 108 election authorities in Illinois.
    The Cyber Navigator Program is a valuable tool for the election 
officials in my State, and it is my hope that programs such as this one 
can serve as a model for other States.
    In addition to funding provided by Congress, this committee has 
made election security a priority and has put forward tough, broad 
policies to secure our elections. I'm proud that these policies are 
included in H.R. 1, the For the People Act, which we passed in the 
House in March of this year.
    This is an important package of reforms because it seeks to restore 
integrity in Government and ensure each and every American can fully 
participate in our democracy.
    Specifically, it helps protect U.S. elections by improving voting 
system security by requiring the Department of Homeland Security to 
maintain election systems as critical infrastructure, require regular 
testing of voting systems, and provide resources for States to conduct 
post-election audits and upgrade legacy election systems.
    I also was proud to support the fiscal year 2020 House 
appropriations package, which included $600 million for the Election 
Assistance Commission to distribute Election Security Grants to bolster 
State election security efforts.
    These 2 House-passed measures go a long way to help districts like 
this one, which is operating under constrained budgets while trying to 
do the absolute most to ensure the integrity of our elections.
    The election is right around the corner and adversaries are already 
working to interfere. We do not have time to wait. The Senate should 
immediately pass legislation to strengthen our election security.
    As the Chairman stated in our previous election security committee 
hearing, we have made great strides since 2016, but we must remain 
vigilant against bad actors working to undermine the beacon of American 
democracy.
    I hope our discussion today will provide this committee and the 
public with valuable resources and assistance in preparation for the 
upcoming elections in 2020.
    The integrity of our elections is essential to the preservation of 
our republic, and it is our patriotic duty as Americans, and my sacred 
duty as someone elected to represent this community, to ensure our 
elections are free from foreign interference.
    I look forward to hearing from the witnesses today on the progress 
that has been made in Illinois, what additional work we can do to 
support our State and local election officials, and how we can help 
other States use Illinois's successes as a model for their own 
programs.
    Thank you again to everyone for being here today--I'm looking 
forward to an educational and productive hearing.

    Chairman Thompson. I thank the gentlewoman.
    Other Members of the committee are reminded that under the 
committee rules opening statements may be submitted for the 
record.
    I would like to extend a welcome to our witnesses.
    Mr. Matthew Masterson is a senior advisor on election 
security at the Cybersecurity and Infrastructure Security 
Agency at the Department of Homeland Security, commonly 
referred to as CISA. Prior to that, he served as chairman of 
the Election Assistance Commission.
    Mr. Steve Sandvoss, executive director of the Illinois 
Board of Elections, Mr. Sandvoss previously served as the Board 
of Elections' general counsel and has worked for the State 
Board of Elections for over 30 years. Congratulations.
    Ms. Robin O'Connor is a clerk for Lake County, Illinois. 
Ms. O'Connor has been in public service for nearly 13 years. 
Thank you.
    Finally, Ms. Elizabeth Howard is counsel for the Brennan 
Center for Justice's Democracy Program. Ms. Howard focuses her 
work on cybersecurity in elections.
    Prior to that, Ms. Howard served as deputy commissioner for 
the Virginia Department of Elections.
    Without objections, the witnesses' full statement will be 
inserted in the record. I now ask each witness to summarize his 
or her statement for 5 minutes, beginning with Mr. Masterson.

  STATEMENT OF MATT MASTERSON, SENIOR CYBERSECURITY ADVISOR, 
CYBERSECURITY AND INFRASTRUCTURE SECURITY AGENCY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Masterson. Thank you, Chairman Thompson, Vice Chair 
Underwood, Congressman Casten.
    Good morning and thank you for the opportunity to testify 
regarding the Department of Homeland Security's efforts to help 
secure our election infrastructure in Illinois and across this 
country.
    My name is Matt Masterson. I am the election security lead 
for DHS and the previous chair of the U.S. Election Assistance 
Commission as well as election official in the State of Ohio.
    The Department of Homeland Security's Cybersecurity and 
Infrastructure Security Agency, or CISA, has a strong 
relationship with State and local officials in Illinois.
    The Department regularly engages with Illinois State 
Election Task Force on Training, assessment requests, and 
information sharing, and today I want to commend the 108 
Illinois election districts and the State of Illinois for 
becoming members of the Election Infrastructure, Information 
Sharing and Analysis Center, or EIISAC.
    In doing so, all election districts in Illinois are part of 
a robust community sharing actionable information and valuable 
alerts and warnings.
    I also want to commend Illinois' successful Cyber Navigator 
Program that has been mentioned, which is truly a model for the 
rest of the country to follow.
    Our progress in working with Illinois is reflective of our 
progress with the election community across the country. CISA's 
mission is clear, to support election officials and their 
private-sector partners to manage--to identify and manage risk 
to their systems, help them manage a response within the 
existing constitution and election traditions.
    Elections are run at the State and local level by dedicated 
professionals across America's more than 8,800 election 
jurisdictions. But those officials shouldn't have to defend 
themselves from sophisticated and persistent threats on their 
own.
    Since 2016, we at CISA have learned a lot. Over the last 2 
years we have worked tirelessly to strengthen our partnership 
with the election community.
    For the 2020 election we are already providing voluntary 
resources and services to all 50 States, over 2,000 local 
jurisdictions, 6 election associations, and 12 election 
vendors.
    Our approach is threefold: No. 1, making sure the election 
community has the information they need to defend their 
systems; No. 2, making sure they have the technical support and 
tools they need to manage risk to their systems; and No. 3, 
building enduring partnerships to advance security efforts 
together.
    CISA is focused on building scalable repeatable mechanisms 
to dramatically grow our information-sharing capabilities.
    We share contextualized threat intelligence and actual 
information through the EIISAC with our close partners in the 
intelligence community and law enforcement and private sector.
    More importantly, State and local officials across the 
country are sharing what they are seeing on their networks and 
on their systems with us.
    We have deployed intrusion detection capabilities, or 
Albert sensors, to provide real-time detection capabilities of 
malicious activity on election infrastructure across all 50 
States.
    Second, we provide technical support and services to 
election officials and their vendors. Initially, we offered the 
standard services including vulnerability assessments that we 
offer to other Federal agencies and critical infrastructure 
partners.
    As we refined our understanding of election officials' 
requirements, we shifted capabilities that are quicker, less 
intrusive, and can scale to more jurisdictions.
    For instance, in 2018 and in 2019 we deployed a remote 
penetration testing capability thanks in part to the funding 
that Congress provided to us to allow for remote penetration of 
election systems, allowing us to identify risks and 
vulnerabilities in election systems without having to deploy 
teams into local election offices, interrupting both their time 
and people.
    This scalability is critical because while our initial 
efforts in 2018 were primarily targeted at State election 
officials, we recognize the need to increase our support to 
counties and municipalities who operate elections as well.
    Our Last Mile Initiative seeks to provide information 
customized to local county election officials. This initiative 
provides no-cost tailored information on cyber risks and a 
checklist of cybersecurity action items specific to them.
    The final area of focus has been on building enduring 
partnerships toward collective defense. It may seem mundane, 
but governance, communications, coordination, training, and 
planning are critical foundational elements of our efforts to 
secure the Nation's elections.
    We are clear-eyed that the threat to our democratic 
institutions remain and we must continue to press for increased 
security and resilience of our election systems.
    For the 2020 election cycle, CISA has built off the lessons 
learned form 2018 and we are working to prioritize the 
following lines of effort.
    No. 1, CISA is focused on expanding engagement at the local 
level. We continue to work with election officials to improve 
both their and our understanding of risks to election systems.
    For instance, in June of this year we did our second annual 
tabletop vote exercise where 47 States, thousands of local 
officials, private sector, and the Federal Government worked 
together to work through scenarios, share information, and 
understand how we would respond collectively to threats to our 
election infrastructure.
    No. 2, CISA has expanded our level of engagement and 
sharing of best cybersecurity practices with political 
organizations, including the DNC and RNC.
    CISA recently joined the FBI and ODNI in offering briefings 
to Presidential campaigns registered with the FEC and is 
engaged directly with Presidential campaigns to offer services 
and share information.
    No. 3, CISA, in coordination with our interagency partners, 
is committed to helping Americans recognize and avoid foreign 
disinformation operations impacting our elections.
    Through innovative efforts like the war on pineapple 
campaign we were educated on the--we educated on the tactics of 
foreign influence using a topic everyone can relate to, the 
divisive issue of pineapple on pizza.
    DHS is also working closely with the intelligence community 
to increase the quantity, quality, and timeliness of 
intelligence and analysis production at the Unclassified level 
to help election officials and the public identify foreign 
influence information.
    We at CISA are committed to working with Congress to ensure 
our efforts cultivate a safer, more secure and resilient 
election.
    Once again, thank you for the opportunity to appear before 
you and I look forward to your questions today.
    Thank you very much for the time.
    [The prepared statement of Mr. Masterson follows:]
                Prepared Statement of Matthew Masterson
                            October 15, 2019
    Chairman Thompson, Congresswoman Underwood, and Members of the 
committee, thank you for the opportunity to testify regarding the U.S. 
Department of Homeland Security's (DHS) progress in reducing and 
mitigating risks to our Nation's election infrastructure. DHS has 
worked to establish trust-based partnerships with State and local 
officials who administer our elections, as well as political parties 
and campaigns, and I look forward to sharing with you an update on our 
work during the 2018 midterm elections and our priorities through the 
2020 election cycle.
    Leading up to the 2018 midterms, DHS worked hand-in-hand with 
Federal partners, State and local election officials, and private-
sector vendors to provide them with information and capabilities to 
enable them to better defend their infrastructure. On the Federal 
level, DHS has coordinated closely with the Federal Bureau of 
Investigation (FBI), the Office of the Director of National 
Intelligence (ODNI), and Department of Defense (DOD) on these efforts. 
This partnership led to a successful model that we aim to continue and 
improve upon in the 2020 election cycle.
    Since 2016, DHS's Cybersecurity and Infrastructure Security Agency 
(CISA) has led a voluntary partnership of Federal Government and 
election officials who regularly share cybersecurity risk information. 
CISA has engaged directly with election officials--coordinating 
requests for assistance, risk mitigation, information sharing, and 
incident response. To ensure a coordinated approach to assisting 
election officials protect the election infrastructure they manage, 
CISA has convened stakeholders from across the Federal Government 
through CISA's Election Security Initiative.
    CISA and the Election Assistance Commission (EAC) have convened 
Federal Government and election officials regularly to share 
cybersecurity risk information and to determine an effective means of 
assistance. Since 2017, the Election Infrastructure Subsector (EIS) 
Government Coordinating Council (GCC) has worked to establish goals and 
objectives, to develop plans for the EIS partnership, and to create an 
EIS Sector-Specific Plan. Participation in the council is voluntary and 
does not change the fundamental role of State and local jurisdictions 
in overseeing elections.
    CISA and the EAC have also worked with election equipment and 
service vendors to launch, in 2017, an industry-led Sector Coordinating 
Council (SCC), a self-organized, self-run, and self-governed council 
with industry leadership designated by SCC members. The SCC serves as 
the industry's principal entity for coordinating with the Federal 
Government on critical infrastructure security activities related to 
sector-specific strategies. This collaboration is conducted under 
CISA's authority to provide a forum in which Federal and private-sector 
entities can jointly engage in a broad spectrum of activities to 
coordinate critical infrastructure security and resilience efforts, 
which is used in each of the critical infrastructure sectors 
established under Presidential Policy Directive 21, Critical 
Infrastructure Security and Resilience. The SCC has helped CISA further 
its understanding of the systems, processes, and relationships 
particular to operation of the EIS.
    Within the context of today's hearing, I will address our efforts 
in 2018 to help enhance the security of elections that are administered 
by jurisdictions around the country, along with our election-related 
priorities through 2020. While there was activity targeting our 
election infrastructure leading up to the midterms, this activity was 
consistent with typical malicious activity targeting networked IT 
systems. DHS along with the Department of Justice (DOJ), ``concluded 
that there is no evidence to date that any identified activities of a 
foreign government or foreign agent had a material impact on the 
integrity or security of election infrastructure or political/campaign 
infrastructure used in the 2018 midterm elections used for the U.S. 
Congress.''\1\
---------------------------------------------------------------------------
    \1\ ``Acting Attorney General and Secretary of Homeland Security 
Submit Joint Report on Impact of Foreign Interference on Election and 
Political/Campaign Infrastructure in 2018 Elections.'' February 5, 
2019. Retrieved from: https://www.dhs.gov/cisa/news/2019/02/05/acting-
attorney-general-and-secretary-homeland-security-submit-joint-report.
---------------------------------------------------------------------------
                          assessing the threat
    The Department, with and through DHS's Office of Intelligence and 
Analysis, regularly coordinates with the intelligence community and law 
enforcement partners on potential threats to the homeland. Among non-
Federal partners, DHS has engaged with State and local officials, as 
well as relevant private-sector entities, to assess the scale and scope 
of malicious cyber activity potentially targeting election 
infrastructure in the United States. Election infrastructure includes 
the information and communications technology, capabilities, physical 
assets, and technologies that enable the registration and validation of 
voters; the casting, transmission, tabulation, and reporting of votes; 
and the certification, auditing, and verification of elections. Since 
2016, State and local election offices and their private-sector 
partners have robustly shared information with DHS regarding activity 
targeting their systems. As with all networked IT systems, officials 
are seeing scanning and probing of their networks on a daily basis. 
Election infrastructure is a target for nation-state and non-state 
actors seeking access to systems containing sensitive data or what they 
perceive to be valuable information. DHS and our intelligence community 
(IC) partners continue to assess that the 2020 election remains a 
likely cyber and influence target for our adversaries. In short, the 
threat to our elections remains and it is incumbent on all levels of 
government to work together to respond.
                           enhancing security
    During the 2018 midterms, CISA provided a coordinated response from 
DHS and its Federal partners to plan for, prepare for, and mitigate 
risk to election infrastructure. Working with election infrastructure 
stakeholders was essential to ensuring a more secure election. CISA and 
our stakeholders increased awareness of potential vulnerabilities and 
provided capabilities to enhance the security of U.S. election 
infrastructure, and shared best practices with other nations facing 
similar threats.
    Election officials across the country have a long-standing history 
of working both individually and collectively to reduce risks and 
ensure the integrity of their elections. In partnering with these 
officials through both new and on-going engagements, CISA will continue 
to provide free, voluntary, prioritized services to support their 
efforts to secure elections in the 2020 election cycle.
  improving coordination with state, local, tribal, territorial, and 
                        private-sector partners
    Increasingly, the Nation's election infrastructure leverages 
information technology for efficiency and convenience, but also exposes 
systems to cybersecurity risks, just like in any other enterprise 
environment. Similar to other sectors, CISA helps systems owners and 
operators in Federal departments and agencies, State, local, Tribal, 
and territorial (SLTT) governments, and the private sector to manage 
these cybersecurity risks. Consistent with our long-standing 
partnerships with State and local governments, we have been working 
with election officials to share information about cybersecurity risks, 
and to provide voluntary resources and technical assistance to manage 
those risks.
                        working with the ei-isac
    CISA works with the Elections Infrastructure Information Sharing 
and Analysis Center (EI-ISAC) to provide threat and vulnerability 
information to State and local officials. Through funding by CISA, the 
Center for Internet Security created and continues to operate the EI-
ISAC. The EI-ISAC has representatives co-located with CISA's operations 
center to enable regular collaboration and access to information and 
services for election officials.
         providing technical assistance and sharing information
    Knowing what to do when a security incident happens--whether 
physical or cyber--before it happens is critical. CISA supports 
election officials with incident response planning including 
participating in exercises and reviewing incident response playbooks. 
Crisis communications is a core component of these efforts, ensuring 
officials are able to communicate transparently and authoritatively 
when an incident unfolds. In some cases, we do this directly with State 
and local jurisdictions. In others, we partner with outside 
organizations. We recognize that securing our Nation's systems is a 
shared responsibility, and we are leveraging partnerships to advance 
that mission. CISA actively promotes a range of services including:
    Cyber hygiene service for internet-facing systems.--Through this 
automated, remote scan, CISA provides a weekly report identifying 
vulnerabilities and mitigation recommendations to improve the 
cybersecurity of systems connected to the internet, such as on-line 
voter registration systems, election night reporting systems, and other 
internet-connected election management systems.
    Risk and vulnerability assessments (both on-site and remote).--We 
have prioritized State and local election systems upon request, and 
increased the availability of risk and vulnerability assessments. These 
in-depth, on-site or remote evaluations include a system-wide 
understanding of vulnerabilities, focused on both internal and external 
systems. We provide a full report of vulnerabilities and recommended 
mitigations following the testing.
    Incident response assistance.--We encourage election officials to 
report suspected malicious cyber activity to CISA. Upon request, the 
CISA can provide assistance in identifying and remediating a cyber 
incident. Information reported to CISA is also critical to the Federal 
Government's ability to broadly assess malicious attempts to infiltrate 
election systems. This technical information will also be shared with 
other State officials so they have the ability to defend their own 
systems from similar malicious activity.
    Information sharing.--CISA maintains numerous platforms and 
services to share relevant information on cyber incidents. Election 
officials may also receive information directly from CISA. CISA also 
works with the EI-ISAC, allowing election officials to connect with the 
EI-ISAC or their State Chief Information Officer to rapidly receive 
information they can use to protect their systems. Best practices, 
cyber threat information, and technical indicators, some of which had 
been previously Classified, have been shared with election officials in 
thousands of State and local jurisdictions. CISA incorporates privacy 
and civil liberties considerations and protections into the design of 
all its activities. Information sharing and use of cybersecurity threat 
indicators, or information related to cybersecurity risks and incidents 
complies with applicable lawful restrictions on its collection and use 
and with Federal and DHS policies protective of privacy and civil 
liberties.
    Classified information sharing.--To most effectively share 
information with all of our partners--not just those with security 
clearances--DHS and its Office of Intelligence and Analysis (I&A) work 
with the intelligence community to rapidly declassify relevant 
intelligence or provide as much intelligence as possible at the lowest 
classification level possible. While DHS prioritizes declassifying 
information to the greatest extent possible, DHS also provides 
Classified information to cleared stakeholders, as appropriate. DHS has 
been working with State chief election officials and additional 
election staff in each State to provide them with security clearances. 
These clearances have helped enable I&A and the intelligence community 
to deliver a number of Classified in-person and secure video 
teleconferences for a broad audience of State and local elections 
officials, in the lead-up to the 2018 midterms and into 2019.
    Field-based cybersecurity advisors and protective security 
advisors.--CISA has cybersecurity and protective security personnel 
available to provide actionable information and connect election 
officials to a range of tools and resources to improve the 
cybersecurity preparedness of election systems, and to secure the 
physical site security of voting machine storage and polling places. 
These advisors are also available to assist with planning and incident 
management for both cyber and physical incidents.
    Physical and protective security tools, training, and resources.--
CISA provides guidance and tools to improve the security of polling 
sites and other physical election infrastructure. This guidance can be 
found at www.dhs.gov/hometown-security. This guidance helps to train 
administrative and volunteer staff on identifying and reporting 
suspicious activities, active-shooter scenarios, and what to do if they 
suspect an improvised explosive device.
       election security efforts leading up to the 2018 mid-terms
    In the weeks leading up to the 2018 midterm elections, CISA 
officials supported a high degree of preparedness Nation-wide. CISA 
provided free technical cybersecurity assistance, continuous 
information sharing, and expertise to election offices and campaigns. 
All 50 States, over 1,500 local and territorial election offices, 6 
election associations, and 12 election venders were engaged in 
information sharing and receipt of assistance from EI-ISAC.
    In August 2018, CISA hosted a ``Tabletop the Vote'' exercise, a 3-
day, first-of-its-kind exercise to assist our Federal partners, State 
and local election officials, and private-sector vendors in identifying 
best practices and areas for improvement in cyber incident planning, 
preparedness, identification, response, and recovery. Through tabletop 
simulation of a realistic incident scenario, exercise participants 
discussed and explored potential impacts to voter confidence, voting 
operations, and the integrity of elections. Partners for this exercise 
included 44 States and the District of Columbia; EAC; Department of 
Defense, including the Office of the Secretary of Defense, U.S. Cyber 
Command, and the National Security Agency; DHS I&A; DOJ, including the 
Federal Bureau of Investigation; Office of the Director of National 
Intelligence; and National Institute of Standards and Technology 
(NIST).
    Through the ``Last Mile Initiative,'' CISA worked closely with 
State and local governments to outline critical cybersecurity actions 
that should be implemented at the county level. For political 
campaigns, CISA disseminated a cybersecurity best practices checklist 
to help candidates and their teams better secure their devices and 
systems.
    On Election Day, DHS deployed field staff across the country to 
maintain situational awareness and connect election officials to 
appropriate incident response professionals, if needed. In many cases, 
these field staff were co-located with election officials in their own 
security operations centers. CISA also hosted the National 
Cybersecurity Situational Awareness Room, an on-line portal for State 
and local election officials and vendors that facilitates rapid sharing 
of information. It gives election officials virtual access to the 24/7 
operational watch floor CISA. This set-up allowed DHS to monitor 
potential threats across multiple States at once and respond in a rapid 
fashion.
                 priorities for the 2020 election cycle
    For the 2020 elections, CISA has identified the following lines of 
effort to guide the Department's work:
  <bullet> Protecting Election Infrastructure,
  <bullet> Supporting Campaigns and Political Infrastructure,
  <bullet> Raising Public Awareness and Building Resilience, and
  <bullet> Efficiently Sharing Actionable Intelligence and Identifying 
        Threats.
    These priorities include broadening the reach and depth of 
information sharing and assistance that CISA is providing to State and 
local election officials, deepening our understanding of the elections 
risk environment, highlighting the need for regular and consistent 
resourcing of election infrastructure, extending the CISA suite of 
services for protecting networks to political campaigns and partisan 
organizations at the National level, and providing intelligence and 
threat reporting to the election community. For more information on 
these priorities, please visit: www.dhs.gov/cisa/protect2020.
    In addition, CISA is working toward improving the efficiency and 
effectiveness of election audits, incentivize the patching of election 
systems, and working with the National Institute of Standards and 
Technology (NIST) and the States to develop cybersecurity profiles 
utilizing the NIST Cybersecurity Framework for Improving Critical 
Infrastructure. The Department will continue to engage any political 
entity that wants our help. We are continuously working to mature our 
understanding of risks to this sector, improve our offerings, and to 
provide meaningful security guidance leveraging leading practices.
    CISA has made tremendous strides on these efforts and goals and has 
been committed to working collaboratively with those on the front lines 
of administering our elections to secure election infrastructure from 
risks. In February, CISA officials provided updates to the Secretaries 
of State, State election directors, and members of the GCC and SCC on 
the full package of election security resources that are available from 
the Federal Government, along with a roadmap on how to improve 
coordination across these entities. DHS also worked with our 
intelligence community partners to provide a Classified 1-day read-in 
for these individuals regarding the current threats facing our election 
infrastructure.
    In June, CISA hosted another ``Tabletop the Vote'' exercise with 
our Federal partners, State and local election officials, and private-
sector vendors to review coordination protocols and incident response 
plans. The Tabletop covered a number of 
pre-, post-, and day-of election scenarios, including voter 
registration compromises, equipment issues, and misinformation 
distributed over news and social media. Participants included 
representatives from 47 States, thousands of local election officials, 
the District of Columbia, U.S. Virgin Islands, along with our Federal 
partners.
    In July, DHS joined ODNI, DOJ, and DOD in briefing the full 
Congress on the Federal Government's coordinated approach to protecting 
the 2020 elections. DHS highlighted the increase in threat information 
that is now shared with State, local, territorial governments, the 
number of intrusion detection sensors, known as Albert sensors, 
deployed across the country, and the prioritization of intelligence 
sharing with State and local officials on cyber threats and foreign 
interference.
    CISA, through the EI-ISAC, now provides threat alerts to all 50 
States and more than 2,000 local and territorial election offices. CISA 
also provides weekly vulnerability scans for 37 States, 145 local 
partners, 1 territory, and 10 private-sector partners. In addition, all 
50 States, 110 localities, and 2 territories now have intrusion 
detection sensors. These sensors are operated and monitored by EI-ISAC 
as part of the Multi-State Information Sharing and Analysis Center's 
(MS-ISAC) Albert intrusion detection system. DHS shares intelligence 
and other cyber threat information with EI-ISAC for use in Albert, 
which assists with identifying specific threats to election 
infrastructure networks. EI-ISAC has also deployed Albert sensors 
within election vendor environments, to protect their networks that 
host voter registration systems in 5 States.
    CISA is also expanding our level of engagement with political 
organizations. We have worked in close coordination with both the 
Democratic National Committee (DNC) and the Republican National 
Committee (RNC) to share information and best practices. CISA has also 
engaged directly with Presidential and Congressional campaigns. These 
efforts have included a joint threat briefing with the FBI and ODNI for 
all Presidential campaigns registered with the FEC as well as engaging 
directly with campaigns to offer services and share information.
    We will remain transparent as well as agile in combating and 
securing our physical and cyber infrastructure. It will take continual 
investment from all levels of government to ensure that election 
systems across the Nation are upgraded, patched, and better secured, 
with older more vulnerable systems retired. These efforts require a 
whole-of-Government approach.
    Our voting infrastructure is diverse, subject to local control, and 
has many checks and balances. As the threat environment evolves, DHS 
will continue to work with Federal agencies, State and local partners, 
and private-sector entities to enhance our understanding of the threat; 
and to make essential physical and cybersecurity tools and resources 
available to the public and private sectors to increase security and 
resiliency.
    Thank you for the opportunity to appear before the committee today, 
and I look forward to your questions.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Mr. Sandvoss to summarize his statement for 
5 minutes.

 STATEMENT OF STEVEN S. SANDVOSS, EXECUTIVE DIRECTOR, ILLINOIS 
                       BOARD OF ELECTIONS

    Mr. Sandvoss. Thank you.
    Good morning. My name is Steve Sandvoss and I am the 
executive director of the Illinois State Board of Elections. I 
would like to thank Chairman Thompson, Vice Chairwoman 
Underwood, and Congressman Casten for giving me this 
opportunity to address you.
    As you are aware, in June 2016, the Illinois State Board of 
Elections was the victim of a cyber attack during which hackers 
gained unauthorized access into the voter registration database 
maintained by the SBE.
    In response to this attack, measures were immediately 
undertaken to eliminate the vulnerability, assess the damage, 
and alert the victims and beef up our cyber defenses.
    Following all of this, the SBE undertook an unprecedented 
effort to secure its voter registration database as well as 
other IT-related applications.
    Such effort was assisted with a grant from the Election 
Assistance Commission that provided $380 million to the States 
to assist in their cybersecurity efforts.
    Illinois' share was $13.2 million. Shortly after receiving 
this grant money, legislation was passed in Illinois that 
earmarked no less than half of the grant money to the Cyber 
Navigator Program to be created and administered by the State 
Board of Elections.
    In order to receive any of the grant money, Illinois' 
election authorities who conduct the elections in Illinois were 
required to participate in the program.
    The Cyber Navigator Program consists of three basic parts. 
The first part is the Illinois Century Network, which is a 
State-managed network delivering internet-type services to 
government agencies in Illinois.
    The goal of the network is to provide the election 
authorities with a cleaner and safer internet. Having this 
network under the complete control of the SBE and the 
Department of Innovation and Technology ensures that voter 
registration and electronic canvassing data never actually flow 
over the internet. Additionally, this gives us the ability to 
provide security measures and intrusion monitoring.
    The second part is the Cybersecurity Information-Sharing 
Program, which the SBE is overseeing in partnership with the 
State-wide Terrorism and Intelligence Center.
    The program involves the research and gathering of 
information related to cyber attacks and cyber resiliency and 
sharing that information with all Federal, State, and local 
stakeholders.
    Our goal is to consolidate numerous information sources and 
the feedback from the election authorities, distill it into the 
most valuable actionable information that is possible.
    The third part are the cyber navigators themselves. Nine 
cyber navigators are currently on contract to assist the 
election authorities by performing on-site risk assessments and 
providing resources to ensure election security for 2020 and 
beyond.
    The navigators will be offering additional services such as 
phishing assessments, penetration testing, and educational 
trainings. They will also be performing assessments on physical 
security and best practices in securing voting equipment.
    In additional to the Cyber Navigator Program, the SBE has 
worked in partnership with the Illinois National Guards' 
cybersecurity team to provide cybersecurity protection for both 
the State Board and the election authorities during the 2018 
general election.
    Members of the Guard were stationed in all regions of the 
State, at the SBE office, at the State-wide Terrorism 
Information Center, and at their own bases to be ready in the 
event of a cyber event.
    We are planning on partnering with the Guard to provide 
cyber protection and incident response for the upcoming 2020 
election.
    Following the creation of the Cyber Navigator Program, the 
SBE released $2.9 million of the aforementioned grant funds to 
the participating election authorities to upgrade election-
related computers systems and to address cyber vulnerabilities 
identified by the cyber navigators.
    The funds can also be used to implement cybersecurity best 
practices for election systems and other activities designed to 
improve the security of the election systems.
    In addition to the Cyber Navigator Program, the SBE took 
many steps to beef up its own internal cybersecurity and these 
steps are described in greater detail in my written statement.
    Looking to the future, the SBE believes it is necessary to 
maintain the Cyber Navigator Program indefinitely and possibly 
expand it to address the continuing needs of the election 
authorities.
    Cybersecurity is an on-going ever-escalating process that 
doesn't have an end date and, as such, there will be an on-
going need for funds to maintain the program.
    At present, the primary mission of the cyber navigators is 
to facilitate the Illinois Century Network connections between 
the SBE and the election authorities and to perform risk 
assessments of the IT systems of all the election authorities 
who are participating in the program to determine their 
adherence to the CIS controls.
    The first phase of risk assessments is complete and the 
cyber navigators are currently reviewing each jurisdiction's 
vulnerabilities and are working with them to best utilize the 
security grant money to improve their cybersecurity posture.
    In addition to the Cyber Navigator Program, the SBE is 
continually working on other ways to prepare for the upcoming 
election. We are assisting the election equipment management 
vendors to improve their security posture.
    We have had discussions related to company ownership, 
personnel, cloud security, and processes for identifying 
cybersecurity risks, incident handling and recovery, testing, 
patching, and anomaly handling of hardware and software, and 
processes for handling the movement of data.
    Our staff continues to participate in tabletop exercises 
that simulate cyber instances that could occur during an 
election. We are working with emergency management officials to 
coordinate preparedness for the upcoming election cycle.
    Last, in conjunction with the Cyber Navigator Program and 
our Elections Operations Division, the SBE's public information 
officer is developing a PR campaign to combat misinformation 
and disinformation particularly in social media.
    I appreciate your time and consideration and will be happy 
to answer any questions you may have.
    Thank you.
    [The prepared statement of Mr. Sandvoss follows:]
                Prepared Statement of Steven S. Sandvoss
                            October 15, 2019
    As the committee is aware, in June 2016 the Illinois State Board of 
Elections (SBE) was the victim of a cyber attack which at the time was 
of unknown origin. It has since been learned that the attack was 
perpetrated by Russian operatives who were seeking unauthorized access 
into the voter registration database maintained by the SBE. In response 
to this attack, measures were immediately undertaken to close the 
access point of the intrusion, assess the extent of the penetration, 
determine whether any data was manipulated or destroyed, and ascertain 
which voter records were improperly accessed, with the purpose of 
alerting said voters and giving guidance to assist them in protecting 
their sensitive information. It should be noted that an analysis of the 
breach did not reveal any evidence that specific voters were targeted 
or that the attack focused on any particular region or demographic. The 
SBE quickly alerted Federal law enforcement, and fully cooperated with 
their investigation. Following the initial steps described above, the 
SBE undertook an unprecedented effort to secure its voter registration 
database as well as other IT-related applications.
    In March 2018, the EAC provided $380 million in grant money to the 
States to assist in their cybersecurity efforts. Illinois' share was 
$13.2 million, with a requirement that the State provide a 5 percent 
match; which amounted to $661,615. Shortly after receiving this grant 
money, legislation was passed in Illinois that earmarked no less than 
half of the grant money to a Cyber Navigator Program (CNP), to be 
created and administered by the SBE.
    In order to receive any of the grant money, Illinois' Election 
Authorities (EAs) must agree to participate in the CNP. (The EAs 
consist of 101 county clerks, 1 county board of election commissioners, 
and 6 city boards of election commissioners, who are responsible for 
maintaining a list of registered voters within their jurisdiction, 
securing election voting and tabulating equipment and conducting the 
actual election on election day, as well as early and mail in voting.)
    The CNP consists of 3 basic parts: (1) Requiring the EAs to adopt 
the Illinois Century Network (ICN) as their internet service provider 
for all traffic between their offices and the SBE, (2) Engaging in a 
Cyber Security Information Sharing Program with the EAs to share 
cybersecurity-related information, and (3) Creation of a team of 
``Cyber Navigators'' to provide cyber assistance to the EAs.
                     illinois century network (icn)
    The ICN is a State-managed network delivering network and internet 
services to government agencies in Illinois. The goal of the ICN is to 
provide EAs with a cleaner and safer internet. The SBE Plan would bring 
all network traffic to and from the EAs to an internal ``10 dot IP'' 
network system and ``whitelisting'' IP addresses for access to the IVRS 
website. Isolating this network to one under the complete control of 
the SBE and Department of Innovation and Technology (DoIT) ensures that 
voter registration data and EA management operations never actually 
flow over the internet. Additionally, this provides us the ability to 
provide additional security measures and monitoring.
               cybersecurity information-sharing program
    In partnership with the Illinois State Police's division of State-
wide Terrorism and Intelligence Center (STIC), the SBE is overseeing 
the Cyber Security Information Sharing Program, which involves 
researching and gathering of information related to pertinent cyber 
attacks and cyber resiliency and sharing that information with all 
Federal and State stakeholders. Our goal is to consolidate numerous 
information sources and, with feedback from local Election Authorities, 
distill it into the most valuable, actionable information possible.
                            cyber navigators
    The Cyber Navigators are assisting the EAs by performing on-site 
risk assessments and providing resources to ensure Election Security 
for 2020 and beyond. Currently 9 Navigators are assigned in 4 regional 
zones in the State. (2 per zone, and 1 lead navigator). The Navigators 
will be offering additional services such as phishing assessments, 
penetration testing, and educational trainings. They will also be 
performing additional risk assessments on physical security and best 
practices in securing voting equipment.
    In addition to the CNP, the SBE worked in partnership with the 
Illinois National Guard's cybersecurity team for coordination of a 
cyber defense system to provide cyber protection for both the SBE and 
the EAs prior to and on Election Day. Members of the Guard were 
stationed in all regions of the State, at the SBE, at STIC and their 
own bases to be ready in the event of a State-wide cyber event.
    Following the creation of the CNP, the SBE released $2.9 million of 
the aforementioned grant funds to the participating EAs to make 
purchases to upgrade election-related computer systems and to address 
cyber vulnerabilities identified through the risk assessments performed 
by the Cyber Navigators and/or other assessments of existing election 
systems. Funds could also be used to implement cybersecurity best 
practices for election systems and other activities designed to improve 
the security of the election systems.
            steps taken to improve the sbe's cyber defenses
    In addition to the CNP, the SBE took the following steps to beef up 
its own cybersecurity.
  <bullet> Hired 2 additional highly-experienced IT staff, including a 
        Chief Information Security Officer (CISO) with over 20 years of 
        Information Security experience.
  <bullet> We have deployed advanced Next Generation Endpoint Security 
        applications which protect agency systems from ransomware and 
        other types of malware. This includes machine learning Endpoint 
        Detection and Remediation (EDR) technologies to help with 
        incident response, forensics, and remediation of security 
        events.
  <bullet> New agency perimeter firewalls have been installed which 
        also includes network intrusion prevention systems. Web 
        application firewalls were also deployed to protect our 
        agency's public-facing applications.
  <bullet> Secure Web Gateways have been deployed which provides 
        category and reputation filtering to ensure agency internet 
        traffic is protected from malicious sources.
  <bullet> Our email security posture has increased significantly due 
        to implementations of strict spam/phishing policies and 
        creation of agency Sender Policy Framework (SPF) and Domain-
        based Message Authentication, Reporting & Conformance (DMARC) 
        records.
  <bullet> Data Loss Prevention (DLP) technologies have been deployed 
        to protect against sensitive data exfiltration. We are also in 
        the process of deploying full disk encryption solutions to our 
        endpoints.
  <bullet> We partner with the Illinois Department of Innovation and 
        Technology to transfer network and system logs to their 24/7 
        Security Operations Center (SOC).
  <bullet> We are running weekly internal vulnerability scans against 
        all agency systems and websites. Illinois Department of 
        Innovation and Technology is running weekly vulnerability scans 
        against our public-facing websites. DoIT and DHS have also 
        performed penetration tests and risk & vulnerability 
        assessments.
  <bullet> Future initiatives include implementations of additional 
        email, DLP, log management and cybersecurity education 
        technologies.
    Looking to the future, the SBE believes it is necessary to maintain 
the Cyber Navigator Program indefinitely and possibly expand it to 
address the continuing needs of the EAs. Cybersecurity is an on-going, 
ever-escalating process that doesn't have an end date, and as such 
there will be an on-going need for funds to maintain the program. At 
present, the primary mission of the Cyber Navigators is to perform risk 
assessments of the IT systems of all the EAs who are participating in 
the CNP (all 108 EAs are participating in the CNP and have completed 
the first round of risk assessments). The EAs are in the process of 
evaluating the Assessments to determine what type of security 
enhancements are needed and are accessing the HAVA grant funds to cover 
the expenses. Some of the other steps that have been taken to enhance 
security leading up to next year's elections are as follows:
  <bullet> Working with the election equipment and management vendors 
        to improve their security posture. This involves a series of 
        questions related to company ownership, personnel, cloud 
        security, and processes for identifying cybersecurity risks, 
        incident handling and recovery, testing, patching and anomaly 
        handling of hardware and software and process for handling the 
        movement of data.
  <bullet> Participating in Table-Top Exercises.
  <bullet> Working with the Emergency Management officials to 
        coordinate preparedness for the up-coming election cycle.
  <bullet> Developing a PR campaign to combat misinformation/
        disinformation, particularly on social media. The SBE has 
        produced videos to assist the election officials and voters on 
        how to spot and report same as well as videos on how to 
        maintain voting machine security and integrity.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Ms. O'Connor to summarize her statement for 
5 minutes.

  STATEMENT OF ROBIN M. O'CONNOR, CLERK, LAKE COUNTY, ILLINOIS

    Ms. O'Connor. Good morning. I am the proud Lake County 
clerk and leader of a stellar team within our office which 
provides multiple services to its citizens.
    I do want to stop real quick and say thank you to the two 
gentlemen that have just spoken because we use their services 
and we are grateful for their offerings. They are steadfast 
with their constant support and we are very thankful in the 
counties.
    OK. Continuing, I just want to talk a little bit about Lake 
County, Illinois. Lake County, Illinois protects the security 
and reliability of our election infrastructure.
    We recognize the importance of using best practices, 
researching, and acquiring modern election systems architecture 
as well as collaborating with organizations dedicated to the 
guiding and providing us to the highest--Lake County has a 
population of 700,832, according to the U.S. Census Bureau 
Population Estimate Program 2018, and as of October 11, 2019, 
458,586 registered voters.
    There are 121 voting sites on the day of election and 18 
early voting sites throughout the county. Lake County offers 3 
voting options: Vote by mail, early voting, and Election Day.
    Citizens may grace register to vote on early day--early 
voting up to and including Election Day. A snapshot of our 
election landscape is that we do have a network-connected 
system but it is not connected to the internet. It is our voter 
registration system.
    We have an indirect connected system, which is our 
elected--election management system with e-pollbooks and we 
also have a nondigital elections component, which is our vote-
by-mail process, which involves multi-steps.
    There are parts which are digital such as on-line requests 
and signature verifications.
    Lake County participates in the election--Illinois Election 
Cyber Navigation risk assessments, which was used to identify 
and assess impacts of vulnerabilities on our network and 
elections system. A common baseline risk assessment as well as 
examining the inherent complexities of network connectivity was 
conducted.
    The results were as follows. We are proud to say that the 
Lake County IT department has already implemented many of the 
recommendations and we are working now on implementing the 
others recommended.
    A common concern is the pairing of information between 
voter registration and election tabulation as well as 
connectivity. Both systems are separate and not connected.
    Our voter registration system will soon be on the Illinois 
Century Network. ICN is a separate and private dedicated 
network for traffic between the Illinois State Board of 
Elections and our voting registration system. Our election 
tabulation system, again, is not connected to the internet.
    Within our election systems and the mitigating risk 
policies we pride ourselves in being proactive and prepared for 
risks and threats.
    I would like to talk a little bit about the management 
systems within our cybersecurity profile. At the county level, 
we are very fortunate because we have an IT security officer 
along with a robust IT department that has already implemented 
many of the cybersecurity measures protecting the county 
network and the IT systems, including our e-pollbooks, our 
voter registration, and our election tabulation systems.
    At the State level, Lake County's Clerk's Office joins the 
Illinois Election Cyber Navigator Program and is working to 
implement recommendations from the risk assessment.
    At the National level, the Lake County Clerk's Office 
joined the Election Infrastructure Information Sharing and 
Analyst Center and a multi-State Informational Sharing Analysis 
Center and we are receiving regular advice and recommendations 
from these organizations.
    We are also adding an Albert sensor to our voter 
registration system which is a monitoring tool that looks for 
malicious traffic on our network and alerts for security 
operations center and it is a 24/7 analysis center that will 
investigate and provide resources to mitigate any issues on our 
network.
    Finally, the Optical Scan Voting System that we use leaves 
a secure paper trail and minimizes the risk against outside 
interference as no electronic votes are ever cast.
    All voting results can be accurately reproduced by 
reinserting the voter paper ballots through a ballot counter or 
a manual inspection.
    The threats of election interference, we believe, as all of 
us who are here, is constant and requires proactive monitoring. 
To maintain always this election integrity, the Lake County 
Clerk and team values our citizens' confidence to keep their 
votes safe and secure.
    [The prepared statement of Ms. O'Connor follows:]
                Prepared Statement of Robin M. O'Connor
                             Oct. 15, 2019
    Lake County Illinois protects the security and reliability of our 
election infrastructure. We recognize the importance of using best 
practices researching and acquiring modern election systems 
architecture, as well as collaborating with organizations dedicated to 
guiding and providing us services of the highest merit.
    Lake County has a population of 700,832 according to the U.S. 
Census Bureau Population Estimate Program 2018 and 458,586 registered 
voters as of October 11, 2019. There are 121 voting sites on the day of 
election and 18 early voting sites throughout the county. Lake County 
offers 3 voting options: Vote by mail, Early Voting, and Election Day. 
Citizens may grace register to vote during Early Voting, up to and 
including Election Day.
    Listed below is a snapshot of our election landscape:
    1. Network connected systems and components (We are not connected 
        to the internet): Voter Registration System
    2. Indirectly connected systems: Election Management System, 
        ePollbooks
    3. Non-digital elections components: In this category our vote by 
        mail process involves multi-steps. There are parts which are 
        digital such as on-line requests and signature verifications.
    Lake County participated in the Illinois Elections Cyber Navigators 
Risk Assessment which was used to identify and assess impacts of 
vulnerabilities on our network and election systems. A common baseline 
risk assessment as well as examining the inherent complexity of network 
connectivity was conducted. The results were as follows: The Lake 
County IT Department had already implemented some of the 
recommendations, and we are working on implementation of the others.
    A common concern is the pairing of information between voter 
registration and the election tabulation, as well as connectivity. Both 
systems are separate and not connected. Our Voter Registration system 
will soon be on the Illinois Century Network (ICN), which is a separate 
and private dedicated network for traffic between the Illinois State 
Board of Elections and our Voter Registration system. Our Election 
Tabulation system is not connected to the internet.
    Within our Election Systems and Mitigating Risk policies, we pride 
ourselves in being proactive and prepared for risks and threats. Listed 
below are management systems within our cybersecurity profile.
    A. County Level.--Lake County has an IT Security Officer, along 
        with a robust IT department that has already implemented 
        cybersecurity measures protecting the County network and IT 
        systems, including our ePollbook, voter registration, and 
        election tabulation systems.
    B. State Level.--The Lake County Clerk's Office joined the Illinois 
        Elections Cyber Navigators program and is working to implement 
        recommendations from the risk assessment
    C. National Level.--The Lake County Clerk's Office joined the EI-
        ISAC (Election Infrastructure Information Sharing and Analysis 
        Center) and MS-ISAC (Multi-State Information Sharing and 
        Analysis Center) and receive regular advisories and 
        recommendations from these organizations. We are also adding an 
        Albert Sensor to our Voter Registration system, which is a 
        monitoring tool that is looks for malicious traffic on our 
        network and alerts the Center for Internet Security (CIS) 
        Security Operations Center, a 247 analysis center that will 
        investigate and provide resources to mitigate any issues on our 
        network.
    Finally, the optical scan voting system leaves a secure paper trail 
and minimizes the risk against outside interference as no electronic 
votes are ever cast. All voting results can be accurately reproduced by 
re-inserting the voted paper ballots through the ballot counter or 
manual inspection.
    The threat of election interference is constant and requires 
vigilance to maintain election integrity. The Lake County Clerk and 
Team values our citizens' confidence to keep their votes safe and 
secure.

    Chairman Thompson. Thank you very much.
    I now recognize Ms. Howard to summarize her statement in 5 
minutes.

 STATEMENT OF ELIZABETH L. HOWARD, COUNSEL, DEMOCRACY PROGRAM, 
                   BRENNAN CENTER FOR JUSTICE

    Ms. Howard. Thank you, Chairman Thompson, Vice Chairwoman 
Underwood, and Congressman Casten for the opportunity to 
testify today about the on-going efforts to secure election 
systems in Illinois and across the country.
    Good morning. Election security has long been a priority 
for the Brennan Center starting in 2005 when we convened the 
Voting Systems Security Task Force to conduct the Nation's 
first systemic analysis of voting equipment vulnerabilities.
    Our work continues today, and in my role as counsel for the 
Democracy Program, I have the opportunity to partner directly 
with State and local election officials as they work to 
implement important election security measures, many of which 
we have supported for years.
    As you have heard this morning, the election systems in 
Illinois and across the country were targeted in 2016, and 
according to our National security and intelligence officials 
will be targeted again in 2020.
    In fact, the director of DHS's Cybersecurity and 
Infrastructure Security Agency--CISA--has stated the big game, 
we think, for adversaries is probably 2020.
    While well-resourced hostile foreign nation-states may be a 
new addition to the list of actors who pose a threat to our 
election infrastructure, the tools and tactics they use are 
not. Cybersecurity professionals are very familiar with these 
threats including distributed denial-of-service attacks, 
hacking, and insider threats.
    Considering this, it is no surprise that there is wide-
spread agreement on the appropriate countermeasures and 
policies that are needed to ensure our election systems can 
withstand attack.
    In short, we know what we need to do to harden our 
infrastructure but we are lacking in leadership and funding.
    Illinois election officials are as acutely aware of the 
threats facing our election systems as anyone. Successful 
attacks on Illinois' voter registration database served as an 
unwelcome alarm to election officials everywhere and Illinois' 
efforts, including their successes and struggles, are 
instructive when analyzing the current National election 
security landscape.
    In good news, election officials in Illinois and across the 
country have made significant progress in protecting our 
democracy since 2016.
    In Illinois, these efforts have included identifying and 
addressing vulnerabilities in the voter registration database 
and launching the Cyber Navigator Program, which provides 
critical IT and cybersecurity support to local election 
officials.
    This program is an important component of Illinois' efforts 
to secure its systems and serves as a model to other States.
    Despite this progress, there is much to do in Illinois and 
across the country.
    First, in Illinois, most of the voting equipment is 
antiquated and many of the machines do not use paper ballots. 
These machines need to be replaced immediately.
    Next, Illinois should implement robust post-election audits 
that serve as a check on the election outcome and answer the 
question, ``Did the reported winner really win the election?''
    Next, many Illinois counties use electronic poll books. 
These are laptops or tablets that poll workers use instead of a 
paper list to look up voters at the polls.
    There are no Federal or State security guidelines for this 
equipment. Illinois should consider expanding its current 
voting system security certification process to include 
electronic poll books and adopting common-sense contingency 
policies such as mandating paper back-up lists at the polls.
    Of course, State and local election officials shouldn't be 
tasked with protecting our democracy alone. Congress has a very 
important role to play in the collective and comprehensive 
efforts to secure our infrastructure.
    In my written testimony, I offer a number of 
recommendations for Congressional action. Among them, require 
voting system vendors to report cyber incidents.
    Next, make the critical infrastructure designation 
permanent to ensure election security remains a priority at DHS 
and elections officials retain access to critical information 
and resources.
    Next, Congress should pay its fair share of the on-going 
cost to protect our democracy and this funding should include 
responsible accountability measures such as those that were 
included in the budget bill that the House passed in June.
    Thank you for your time. I look forward to your questions.
    [The prepared statement of Ms. Howard follows:]
               Prepared Statement of Elizabeth L. Howard
                            October 15, 2019
    Chairman Thompson, Ranking Member Rogers, and Members of the 
committee, thank you for the opportunity to speak about the critical 
issue of election security. The Brennan Center for Justice--a 
nonpartisan law and policy institute that focuses on democracy and 
justice--appreciates the opportunity to share with you our analysis of 
the important efforts to secure election systems in Illinois and across 
the country based on the results of our extensive studies and work to 
ensure our Nation's election systems are more secure and reliable 
across the country. We are deeply involved in the effort to ensure 
accurate and fair voting for all Americans.
    For over a decade, I have worked on election administration issues. 
In my former position as Deputy Commissioner of Elections in Virginia, 
I coordinated various election security projects, including the 
decertification of all paperless voting machines in 2017. In my current 
role, I focus almost exclusively on election security. Representing the 
Brennan Center, I frequently partner with State and local election 
officials to assist with the implementation of important election 
security measures and serve on the Michigan Secretary of State's 
Election Security Commission and the Pennsylvania Secretary of State's 
Audit Working Group. I have also co-authored multiple reports on 
election security and remedial measures and policies that will better 
enable our election infrastructure to withstand attack.
    Most recently, I co-authored Defending Elections, which 
demonstrates the need for additional election security resources across 
the country. This report includes detailed profiles of recent election 
security efforts and on-going needs in 6 States, including Illinois. We 
noted that as part of Russia's ``sweeping and systemic'' efforts to 
interfere with our elections in 2016, Russian operatives ``compromised 
the computer network of the Illinois State Board of Elections . . . [,] 
then gained access to a database containing information on millions of 
registered Illinois voters, and extracted data related to thousands of 
U.S. voters before the malicious activity was identified.''\1\ And, 
although there is no panacea to counter such threats, Illinois has 
implemented a variety of election security measures which should help 
identify and patch or otherwise address cybersecurity vulnerabilities 
like those the Russians exploited in 2016.
---------------------------------------------------------------------------
    \1\ Christopher R. Deluzio, Liz Howard, Paul Rosenzweig, David 
Salvo, and Rachael Dean Wilson, Defending Elections, Brennan Center for 
Justice, 2019, https://www.brennancenter.org/sites/default/files/
publications/2019_07_EACFunding%20Report_FINAL.pdf.
---------------------------------------------------------------------------
    Based on our extensive election security studies and partnerships 
with a diverse range of election officials, we believe that Illinois's 
successes and struggles in its on-going effort to secure the State's 
election infrastructure are instructive when analyzing the election 
security landscape across the country. In Illinois, and across the 
country, there has been much progress since 2016, but much work remains 
to be done.
    I hope to convey 3 points in my testimony today:
    (1) The risks facing our Nation's election infrastructure in 2020 
require urgent action;
    (2) Illinois has taken many important steps to improve election 
security, including implementation of a cyber navigator program, but 
there is more to do; and
    (3) Congress has a critical leadership and partnership role to play 
in helping Illinois and other States ensure our elections are free, 
fair, and secure.
   a. the risks facing our election infrastructure must be urgently 
                               addressed.
    Illinois was not the only State targeted by Russia in 2016. We now 
know that Russia likely targeted State and local election boards in all 
50 States and used spear-phishing attacks to gain access to and infect 
computers of a voting technology company and 2 Florida counties.\2\ We 
also know there is good reason to believe we face even more serious 
threats in 2020 and beyond. By 2020, the Russians will have had 4 years 
to leverage knowledge gained in 2016 to do more harm. Chris Krebs, head 
of the Cybersecurity and Infrastructure Security Agency at the 
Department of Homeland Security, has warned that the 2020 election is 
``the big game'' for adversaries looking to attack American democracy.
---------------------------------------------------------------------------
    \2\ Russian Active Measures Campaigns and Interference in the 2016 
U.S. Election Volume 1, Senate Select Committee on Intelligence, 2019, 
https://www.intelligence.senate.gov/sites/default/files/documents/
Report_Volume1.pdf (``DHS assessed that the searches, done 
alphabetically, probably included all 50 States, and consisted of 
research on ``general election-related web pages, voter ID information, 
election system software, and election service companies.''); Miles 
Parks, ``Florida Governor Says Russian Hackers Breached 2 Counties In 
2016,'' NPR, May 14, 2019, https://www.npr.org/2019/05/14/723215498/
florida-governor-says-russian-hackers-breached-two-florida-counties-in-
2016; Sean Gallagher, ``DHS, FBI say election systems in all 50 States 
were targeted in 2016,'' Ars Technica, April 10, 2019, https://
arstechnica.com/information-technology/2019/04/dhs-fbi-say-election-
systems-in-50-states-were-targeted-in-2016/ (``The FBI and DHS assess 
that Russian government cyber actors probably conducted research and 
reconnaissance against all US States' election networks leading up to 
the 2016 Presidential elections.''); Election Security Hearing, Before 
the Comm. on House Administration, 116th Cong. (2019) (Statement of 
Lawrence Norden).
---------------------------------------------------------------------------
    In many ways, the major cybersecurity risks posed today by Russia 
and other hostile foreign nation-states are not new. They include 
hacking, e.g., SQL injections and ransomware attacks, distributed 
denial-of-service (DDoS) attacks and insider threats.\3\ Like other 
Government officials responsible for protecting the integrity of IT 
systems and the information they maintain, election officials are 
struggling to manage these risks.\4\
---------------------------------------------------------------------------
    \3\ Meredith Berger et al., The State and Local Election 
Cybersecurity Playbook, Harvard Kennedy School and Defending Digital 
Democracy, 2018, https://www.belfercenter.org/sites/default/files/
files/publication/StateLocalPlaybook%201.1.pdf.
    \4\ See e.g., Kylie Bielby, ''GAO: Federal Agencies Struggle to 
Manage Cybersecurity Risks,'' Homeland Security Today, July 26, 2019, 
https://www.hstoday.us/exclude-from-homepage/gao-federal-agencies-
struggle-to-manage-cybersecurity-risks/; Alyza Sebenius and Kartikay 
Mehrotra, ``States Struggle to Update Election Systems for 2020,'' 
Bloomberg, August 15 2019, https://www.bloomberg.com/news/articles/
2019-08-15/states-struggle-to-update-election-systems-ahead-of-2020; 
Benjamin Wofford, ``The hacking threat to the midterms is huge. And 
technology won't protect us,'' Vox, October 25, 2018, https://
www.vox.com/2018/10/25/18001684/2018-midterms-hacked-russia-election-
security-voting; Kate Rabinowitz, ``Election Security a High Priority--
Until It Comes to Paying for New Voting Machines,'' ProPublica, 
February 20, 2018, https://www.propublica.org/article/election-
security-a-high-priority-until-it-comes-to-paying-for-new-voting-
machines.
---------------------------------------------------------------------------
    Election officials hold a special place in our democracy. Not only 
are they responsible for protecting our election infrastructure, but 
also maintaining and bolstering confidence in the democratic process we 
use to decide who will serve important governmental roles at the 
Federal, State, and local level. Americans' faith in the integrity of 
this system is the foundation of our ability to self-govern and is in 
peril.\5\
---------------------------------------------------------------------------
    \5\ Robert S. Mueller III, Report On The Investigation Into Russian 
Interference In The 2016 Presidential Election, U.S. Department of 
Justice, 2019, https://www.justice.gov/storage/report.pdf 
(characterizing the Russian government's interferences as a ``sweeping 
and systematic'' effort to undermine faith in our democracy).
---------------------------------------------------------------------------
    Election officials should not be tasked with shouldering this 
responsibility alone. Under our Federal system of government, the risks 
facing individual election jurisdictions are a threat to every American 
who has confidence in our democracy. Successful attacks against our 
infrastructure in any county in any State can have a ripple effect that 
impacts the balance of power at the Federal level. While the 
decentralized nature of our electoral system is a strength in many 
ways, we are only as strong as our weakest link.
    There is wide-spread agreement on many of the remedial measures and 
policies necessary to create a resilient election infrastructure. We 
urge Congress to take immediate steps to protect the votes cast by 
every American by passing common-sense legislation to ensure 
implementation of minimum election security standards across our Nation 
and by paying its fair share of the associated costs.
b. illinois officials have implemented many important election security 
 measures and policies, including a cyber navigator program, but much 
   work remains to be done at the federal and state level to address 
                       significant security gaps.
    In the wake of Russia's successful infiltration of Illinois' voter 
registration database in 2016, Illinois officials took prompt action to 
address identified vulnerabilities. Their work continues today. 
Illinois' on-going efforts to further strengthen their election 
infrastructure include welcoming public and private election security 
partners, such as the U.S. Department of Homeland Security (DHS), and 
taking advantage of a wide range of free resources available.
    In addition, they are using the entirety of the State's 2018 
Federal election security grant funds, approximately $14 million, for 
cybersecurity improvements. The hallmark of that effort is the State's 
cyber navigator program; the State plans to devote at least half of its 
Federal grant toward this program. While much progress has been made in 
Illinois, the 2018 grant funds were simply not enough to address all 
the State's critical election security needs. In fact, the Federal 
grant funds were similarly insufficient in every State leaving election 
officials across the country in a grim situation. They were forced to 
decide which critical election security projects to fund--and which not 
to. In Illinois, this meant no Federal funding was available for urgent 
needs such as replacing antiquated voting equipment.
Illinois' Cyber Navigator Program Addresses a Critical Election 
        Security Need and Serves as a Model for Other States Across the 
        Country.
    In 2018, Illinois launched its cyber navigator program (CNP). As 
part of this program, cyber navigators with responsibility for 
geographic zones across the State work with local election officials to 
train relevant personnel and to lead risk assessments and evaluations, 
among other things. They fill a role akin in many ways to that of a 
chief information security officer for counties. Their assessment and 
evaluation efforts help officials identify vulnerabilities and 
determine where additional resources may be needed to shore up cyber 
defenses. The program's other principal components are infrastructure 
improvement, through the Illinois Century Network Expansion, and 
information sharing, through the Cybersecurity Information Sharing 
Program.\6\
---------------------------------------------------------------------------
    \6\ Deluzio et al., Defending Elections.
---------------------------------------------------------------------------
    This program addresses a critical problem facing many local 
election officials in Illinois and across the country: the lack of IT 
and cybersecurity support at the local level.\7\ Without a State 
resource for cyber assistance, local election officials who do not have 
dedicated IT staff may be at greater risk of a successful cyber attack. 
These officials may not have sufficient resources to appropriately 
respond to identified cyber threats to local systems or equipment, such 
as those risks shared by the Elections Infrastructure Information 
Sharing and Analysis Center (EI-ISAC).
---------------------------------------------------------------------------
    \7\ Deluzio et al., Defending Elections.
---------------------------------------------------------------------------
    Federal, State, and local officials across the country and the 
Brennan Center support the wide-spread adoption of this program,\8\ 
which has been identified as an important component of Illinois' 
comprehensive approach to securing the State's election infrastructure.
---------------------------------------------------------------------------
    \8\ Deluzio et al., Defending Elections; DHS Election 
Infrastructure Security Funding Consideration, National Protection and 
Programs Directorate, Department of Homeland Security, June 13, 2018, 
https://www.dhs.gov/sites/default/files/publications/
Election%20Infrastructure%20- 
Security%20Funding%20Considerations%20Final.pdf.
---------------------------------------------------------------------------
i. Most of Illinois' Voting Machines are Antiquated and Many Do Not Use 
        Paper Ballots. They Must Be Replaced and Robust--Post-Audits 
        Must Be Implemented.
    Millions of Illinois voters will go to the polls to cast their 
ballot on Election Day 2020. They will encounter a variety of different 
voting machines at their polling place, from hand-marked paper ballot 
systems in some counties to antiquated Direct Recording Electronic 
(DRE) machines that produce a voter-verifiable paper audit trail 
(VVPAT) in others. As ``the bulk of the voting machinery in Illinois is 
at least 15 years old,''\9\ the on-going use of these machines expose 
voters to multiple security risks.
---------------------------------------------------------------------------
    \9\ Rick Pearson, ``Illinois Pushes Millions Toward Securing Its 
Election Systems,'' Government Technology, August 5, 2019, https://
www.govtech.com/budget-finance/Illinois-Pushes-Millions-Toward-
Securing-Its-Election-Systems.html.
---------------------------------------------------------------------------
    First, aging voting systems, in general, are a security risk and 
less reliable than voting equipment available today. Older systems are 
``more likely to fail and are increasingly difficult to maintain.''\10\ 
Many used in Illinois, such as the AccuVote TSX used in multiple 
Illinois counties, including DuPage County, are no longer manufactured 
so finding replacement parts will be increasingly difficult over 
time.\11\ This problem exacerbates the reported system-specific 
security concerns with other older systems used in Illinois, such as 
the AutoMARK, including inconsistent vote tallying and reboot times of 
15 to 20 minutes.\12\ Moreover, these systems simply lack important 
security features expected of voting machines today, such as hardware 
access deterrents for ports.\13\
---------------------------------------------------------------------------
    \10\ Election Security Hearing, Before the Comm. on House 
Administration, 116th Cong. (2019) (Statement of Lawrence Norden); 
Josie Bahnke (Elections Director, Office of the Lieutenant Governor, 
Alaska), Letter to Election Policy Work Group Members, July 18, 2018, 
http://www.elections.alaska.gov/doc/info/180718%20EPWG%20Research.pdf 
(``Today the DOE is at a critical juncture: Alaska's voting equipment 
and technology are outdated, difficult to repair and prone to 
failure.'').
    \11\ Lawrence Norden and Andrea Cordova, ``Voting Machines at Risk: 
Where We Stand Today,'' Brennan Center for Justice, March 5, 2019, 
https://www.brennancenter.org/analysis/voting-machines-risk-where-we-
stand-today.
    \12\ Ruth Johnson (Oakland County clerk/register of deeds), Letter 
to Rosemary Rodriguez (chairperson, Election Assistance Commission), 
October 2, 2008, https://www.eac.gov/assets/1/6/
Oakland_County_Michigan_letter_regarding_ES_S_M_100_voting_machine_tab- 
ulators.pdf (stating that 8 percent of M-100 fleet in Oakland County 
``reported inconsistent vote totals during their logic and accuracy 
testing''); ``Election Systems and Software (ES&S) AutoMARK,'' Verified 
Voting, accessed May 4, 2019, https://www.verifiedvoting.org/resources/
voting-equipment/%20ess/automark/ (listing AutoMARK security concerns).
    \13\ Deluzio et al., Defending Elections.
---------------------------------------------------------------------------
    The continued use of antiquated equipment is a concern in many 
other States as well. We estimate at least some voters in as many as 38 
States will cast their 2020 ballot on equipment that is more than 10 
years old.\14\ In November 2018, we estimate that 34 percent of all 
local election jurisdictions were using voting machines that were at 
least 10 years old as their primary polling place equipment (or as 
their primary tabulation equipment in all vote-by-mail 
jurisdictions).\15\ Next, although VVPATs were ``designed primarily for 
audit purposes,'' studies have found they have some significant 
shortcomings.\16\ For example, one report examining VVPATs in Cuyahoga 
County, OH found almost 10 percent of the VVPAT tapes ``were either 
destroyed, blank, illegible, missing, taped together or otherwise 
compromised,'' and 19 percent of the tapes indicated discrepancies with 
the reported counts.\17\ Auditing VVPATs also takes more time than 
auditing paper ballots ``due to the need to physically separate the 
ballots from the spool in the first count.''\18\ Finally, the results 
of least one study ``suggest that people count optical scan ballots 
somewhat more accurately than VVPAT paper tapes.''
---------------------------------------------------------------------------
    \14\ Norden and Cordova, ``Voting Machine Security'' (Forty-one 
States minus Alaska, California, and North Dakota).
    \15\ Ibid.
    \16\ Stephen N. Goggin et al., ``Comparing the Auditability of 
Optical Scan, Voter Verified Paper Audit Trail (VVPAT) and Video 
(VVVAT) Ballot Systems,'' USENIX The Advanced Computing Systems 
Association, 2008, https://www.usenix.org/legacy/events/evt08/tech/
full_papers/goggin/goggin.pdf (``While VVPAT and VVVAT systems are both 
designed primarily for audit purposes, the actual implementation of 
VVPAT auditing has not been free from problems. For example, the 
Election Science Institute (ESI) examined all aspects of election 
administration in Cuyahoga County, Ohio during the May 2006 primary 
election. The ESI report found that 10 percent of VVPAT spools were 
unreadable or missing, while 19 percent of the spools indicated 
discrepancies with the reported counts (ESI, 2006). Alternatives like 
VVVAT systems are still currently under development.'')
    \17\ DRE Analysis for May 2006 Primary: Cuyahoga County, Ohio, 
Election Science Institute, August 2006, 6, https://web.archive.org/
web/20120330212509/http://votingindustry.com/TabulationVendors/1stTier/
Diebold/esi_cuyahoga_final.pdf.
    \18\ Stephen N. Goggin et al., ``Comparing the Auditability of 
Optical Scan . . . ''; see also Joseph Hall, ``McCormack Hit Job Video 
on VVPAT,'' Not Quite a Blog, March, 23, 2019, https://josephhall.org/
nqb2/index.php/mccormack_vvpat_vid (``Recounting VVPAT ballots cast 
during early voting on DREs in conjunction with the pilot program ran 
for the November 2002 election in Sacremento County, California proved 
even more labor-intensive. Sacramento County Registrar of Voters Jill 
LaVine, in Congressional testimony on July 7, 2004 reported ``the 
recount of 114 VVPAT ballots took 127 hours, approximately 1 hour per 
ballot due to the complexity of the long ballot for that election.'').
---------------------------------------------------------------------------
    Cybersecurity experts, including the National Academies of 
Sciences, Engineering, and Medicine, agree that DREs with VVPAT 
represent a security risk and elections should be conducted using 
human-readable paper ballots.\19\ The U.S. House of Representatives 
recently indicated its support for replacement of all DREs by voting to 
provide $600 million in election security funding to States and 
requiring those States that continue to use DREs to first use these 
funds to replace them.\20\
---------------------------------------------------------------------------
    \19\ Securing the Vote, The National Academies of Sciences, 
Engineering, and Medicine, 2018, https://www.nap.edu/read/25120/
chapter/1 (``Electronic voting systems that do not produce a human-
readable paper ballot of record raise security and verifiability 
concerns.'')
    \20\ Financial Services and General Government Appropriations Bill 
2020 Report, House Committee on Appropriations, 2019, 3, 51-52, 112, 
https://docs.house.gov/meetings/AP/AP00/20190611/109632/HMKP-116-AP00-
20190611-SD003.pdf.
---------------------------------------------------------------------------
    Illinois is 1 of only a small number of States that continue to use 
DREs with VVPATs as the primary voting system in 1 or more 
jurisdictions.\21\ In 2020, Illinois may be 1 of as few as 7 States 
with counties that rely primarily on these machines.\22\ The on-going 
use of DREs with VVPATs makes the current election infrastructure in 
Illinois slightly more secure than the infrastructure in the 8 States 
(Indiana, Kansas, Kentucky Louisiana, Mississippi, New Jersey, 
Tennessee, & Texas) we estimate will use paperless DREs in 2020.
---------------------------------------------------------------------------
    \21\ Federal Funds for Election Security: Will They Cover the Costs 
of Voter Marked, Brennan Center for Justice and Verified Voting, 2018, 
https://www.brennancenter.org/our-work/research-reports/federal-funds-
election-security-will-they-cover-costs-voter-marked-paper.
    \22\ California has required replacement by 2020, Wyoming is 
replacing now, and North Carolina State law currently requires 
replacement by December 31, 2019. ``Secretary of State Alex Padilla 
Sets Deadline for Counties to Retire Old Voting Machines and Modernize 
Election Infrastructure,'' California Secretary of State Press Office, 
February 27, 2019, https://www.sos.ca.gov/administration/news-releases-
and-advisories/2019/secretary-state-alex-padilla-sets-deadline-
counties-retire-old-voting-machines-and-modernize-election-
infrastructure; ``Funding Elections Technology,'' National Conference 
of State Legislatures, July 29, 2019, http://www.ncsl.org/research/
elections-and-campaigns/funding-election-technology.aspx; ``State Board 
to Consider Certification of Voting Systems,'' North Carolina State 
Board of Elections, July 23, 2019, https://www.ncsbe.gov/Press-
Releases?udt_2226_param_detail=767 (``Under current State law, DREs 
will be decertified in North Carolina on December 1, 2019, in favor of 
voting equipment that results in paper ballots for all voters. Proposed 
legislation pending in the N.C. General Assembly would delay the 
decertification date.'').
---------------------------------------------------------------------------
    DREs with VVPATs are more secure than paperless DREs because the 
VVPAT can be audited after the election. Unlike some States, Illinois 
does take advantage of this security feature by conducting an audit of 
these paper records to check and confirm electronic vote tallies. We 
estimate that Illinois will be 1 of only 24 States and the District of 
Columbia that will have voter verifiable paper records for all votes 
cast and require post-election audits of those paper records before 
certifying election results in 2020.\23\
---------------------------------------------------------------------------
    \23\ Norden and Cordova, ``Voting Machine Security''.
---------------------------------------------------------------------------
    Illinois relies on the traditional post-election audit method, in 
which the results from voting equipment in a specific percentage of 
precincts are reviewed. This method provides assurance that individual 
voting machines are correctly tabulating votes. Risk-limiting audits 
(RLAs) are a relatively new type of audit that provide assurance that 
election outcomes are correct by using statistics to analyze random 
samples of all votes cast. In 2020, RLAs will be required State-wide in 
Colorado and Rhode Island and may be conducted in lieu of traditional 
post-election audits at the county level in California, Ohio, and 
Washington.
    The Brennan Center has long supported both a complete, Nation-wide 
transition to paper ballot voting machines and the implementation of 
risk limiting audits (``RLAs''), an efficient and effective check on 
election results, to ensure security and confidence in electoral 
results. Encouragingly, many Illinois counties and multiple States have 
made significant progress in replacing their aging and DRE voting 
systems in recent months and years. Cook County, Macoupin County, 
Arkansas, Georgia, Pennsylvania, and South Carolina have either 
completed the replacement of their DRE voting machines or are 
transitioning now.\24\ In addition, election officials in at least 6 
additional States are piloting risk-limiting audits, the ``gold-
standard'' of post-election audits.\25\
---------------------------------------------------------------------------
    \24\ Marley Arechiga, ``Cook County Getting New Voting Machines For 
First Time In 13 Years,'' WBEZ, March 26, 2019, https://www.wbez.org/
shows/wbez-news/cook-county-getting-new-voting-machines-for-first-time-
in-13-years/02665912-4298-4ac5-afe8-3b7bff079027; Macoupin County 
Clerk's Office, ``We are really excited that the County Board approved 
purchasing new voting machines at this week's meeting,'' Facebook, 
August 16 2019, https://www.facebook.com/MacoupinCountyClerk.
    \25\ Norden and Cordova, ``Voting Machine Security''.
---------------------------------------------------------------------------
ii. Multiple Illinois Counties Use Electronic Pollbooks. There Are No 
        Federal or State Security Guidelines for Electronic Pollbooks. 
        They Should Be Included in the Federal Certification Process 
        and Illinois Should Consider Adopting a State Certification 
        Process and Common-Sense Contingency Policies.
    As of July 2019, 41 States, including Illinois, and DC use or 
authorize the use of electronic pollbooks in at least some polling 
places.\26\ Electronic pollbooks (EPBs) are laptops or tablets that 
poll workers use instead of paper lists to look up voters. Most EPBs 
can communicate with other EPBs in the same polling location to share 
real-time voter check-in updates.\27\ In addition to an expedited 
check-in procedure, shorter lines, lower staffing needs, and cost 
savings, one major benefit of EPBs is that they can make it easier to 
set up ``vote centers'' during early voting in some States, e.g., 
Illinois, or on Election Day in other States. Vote centers are ``an 
alternative to traditional neighborhood-based precincts''.\28\ Anyone 
in a particular jurisdiction can vote there, regardless of where they 
live, possibly making voting more convenient, providing additional cost 
savings, and encouraging increased voter turnout.\29\ If a county uses 
multiple vote centers, the electronic pollbooks can automatically sync 
during the day to ensure that once someone has voted in a particular 
location, they cannot vote in another location on the same day.
---------------------------------------------------------------------------
    \26\ ``Electronic Poll Books,'' National Conference of State 
Legislatures, July 15, 2019, http://www.ncsl.org/research/elections-
and-campaigns/electronic-pollbooks.aspx; Andrea Cordova, ``Want a 
Simple Way to Increase Election Security? Use Paper,'' Brennan Center 
for Justice, October 8, 2018, https://www.brennancenter.org/blog/want-
simple-way-increase-election-security-use-paper.
    \27\ Edgardo Cortes, Liz Howard, and Lawrence Norden, Better Safe 
than Sorry: How Election Officials Can Plan Ahead to Protect the Vote 
in the Face of a Cyberattack, Brennan Center for Justice, 2018, https:/
/www.brennancenter.org/sites/default/files/publications/2018_08_- 
13_ElectionSecurity_V4.pdf.
    \28\ ``Vote Centers,'' National Conference of State Legislatures, 
http://www.ncsl.org/research/elections-and-campaigns/vote-centers.aspx.
    \29\ Ibid.
---------------------------------------------------------------------------
    Despite these advantages, EPBs also have the potential to introduce 
cybersecurity risks. In a worst-case scenario, hackers could alter or 
delete voter data, even causing voters to appear as if they have voted 
when they have not. EPBs that require access to the internet can also 
pose problems in rural counties that lack reliable connectivity.\30\ 
Unlike voting machines, there are currently no Illinois or National 
security standards for electronic pollbooks. Currently, the Help 
America Vote Act (HAVA), limits the Federal election administration 
agency's ability to create requirements for, test, and certify EPBs in 
the same way they do for voting machines. The Illinois State Board of 
Elections is subject to similar limitations and expanding the State 
voting equipment certification process to include EPBs would likely 
require legislative action.
---------------------------------------------------------------------------
    \30\ Andrea Cordova, ``Want a Simple Way to Increase Election 
Security? Use Paper,'' Brennan Center for Justice, October 8, 2018, 
https://www.brennancenter.org/blog/want-simple-way-increase-election-
security-use-paper.
---------------------------------------------------------------------------
    In the absence of Federal certification standards, 12 States have 
developed a State-wide system of e-pollbook regulation and 
certification according to the National Conference of State 
Legislatures (NCSL) and some States have adopted common-sense 
contingency policies to ensure that voting can continue with minimal 
interruptions in the event of a successful EPB attack or failure.\31\ 
In 2018, when 34 States used EPBs, only half required printed back-up 
paper pollbooks to be present in the polling place at the time voting 
began and, in 32 of the 34 States, we found no requirements in State 
law or regulation mandating a minimum number of provisional 
ballots.\32\ Although some Illinois counties, such as Cook County,\33\ 
voluntarily supply each polling place with a paper copy of the 
pollbook, or implement other common-sense contingency policies, 
Illinois should consider adopting an EPB certification process and 
appropriate EPB contingency measures.
---------------------------------------------------------------------------
    \31\ ``Electronic Poll Books,'' National Conference of State 
Legislatures, July 15, 2019, http://www.ncsl.org/research/elections-
and-campaigns/electronic-pollbooks.aspx.
    \32\ Cordova, ``Want a Simple Way to Increase Election Security? 
Use Paper''.
    \33\ ``Election Security,'' Cook County Clerk's Office, https://
www.cookcountyclerk.com/service/election-security.
---------------------------------------------------------------------------
    The Brennan Center supports updating HAVA to allow the Election 
Assistance Commission (EAC) to create a certification program for all 
electronic pollbooks, as they do for voting systems, in order to 
encourage secure EPB systems Nation-wide. These additional 
responsibilities will require increased funding and staffing levels for 
the EAC to effectively test and certify EPBs.
c. a comprehensive approach to election security requires congressional 
  leadership and partnership with federal, state, and local election 
                               officials.
    While State and local election officials can take many important 
steps without Congressional action, these efforts will result in a 
patchwork of election infrastructure vulnerabilities across the 
country. Only Congress can establish minimum National election security 
standards to safeguard our election infrastructure and Americans' 
confidence in our electoral system. Congress should take several 
meaningful and simple steps to assist and support the on-going efforts 
of State and local election officials to ensure that our elections are 
free, fair, and secure.
i. Congress should require election system vendors to report 
        cybersecurity incidents.
    Private companies are contracted to perform everything from 
building and maintaining election websites that help voters determine 
how to register and where they can vote, to printing and designing 
ballots, to programming voting machines before each election, to 
building and maintaining voter registration databases, voting machines, 
and electronic poll books. Congress should consider additional steps to 
protect our elections from attacks that target these private election 
system vendors and to regulate vendor conduct. Unlike other sectors 
that the Federal Government has designated ``critical infrastructure,'' 
there is currently almost no Federal oversight of the private vendors 
who design, build, and maintain our election systems. In fact, there 
are more Federal regulations for ballpoint pens and magic markers than 
there are for voting systems and other parts of our Federal elections 
infrastructure.
    The Brennan Center recommends that Congress adopt a mandatory 
reporting system for all cybersecurity incidents for election vendors. 
While this may seem like a small step, it could have a large impact on 
the overall security position of election officials around the country. 
We know that the lack of transparency in vendor security is a 
significant vulnerability to election security. Private vendors were 
targeted in the 2016 election and are likely to be targeted again.\34\ 
In fact, reporting requirements for cybersecurity incidents are a bare 
minimum, and we should be considering additional requirements such as 
vendor employee background checks and other lessons learned from 
similar critical infrastructure sectors.\35\ The Brennan Center has 
documented some of the additional reasons for mandating such reporting 
in the 2010 report, Voting System Failures: A Database Solution.\36\
---------------------------------------------------------------------------
    \34\ Lawrence Norden and Ian Vandewalker, Securing Elections from 
Foreign Interference, Brennan Center for Justice, 2017, https://
www.brennancenter.org/publication/securing-elections-foreign-
interference.
    \35\ Brian Calkin et al., A Handbook for Elections Infrastructure 
Security, Center for Internet Security, February 2018, https://
www.cisecurity.org/wp-content/uploads/2018/02/CIS-Elections-eBook-15-
Feb.pdf.
    \36\ Lawrence Norden, Voting System Failures: A Database Solution, 
Brennan Center for Justice, 2010, https://www.brennancenter.org/
publication/voting-system-failures-database-solution.
---------------------------------------------------------------------------
ii. Congress should make the critical infrastructure designation 
        permanent.
    In a decision subsequently affirmed by the Trump 
administration,\37\ DHS Secretary Jeh Johnson designated election 
systems as ``critical infrastructure'' in January 2017.\38\ This 
designation is given to ``systems and assets, whether physical or 
virtual, so vital to the United States that the incapacity or 
destruction of such systems and assets would have a debilitating impact 
on security, National economic security, National public health or 
safety, or any combination of those matters.''\39\ It is significant 
because it ``enables DHS to prioritize cybersecurity and physical 
security assistance to election officials upon request.''\40\ Further, 
this designation emphasizes, both domestically and internationally, 
that election infrastructure possesses all the benefits and protections 
that the Nation has to offer.\41\ ``Finally, a designation makes it 
easier for the Federal Government to have full and frank discussions 
with key stakeholders regarding sensitive vulnerability 
information.''\42\
---------------------------------------------------------------------------
    \37\ Progress Made, But Additional Efforts Are Needed to Secure the 
Election Infrastructure, Office of Inspector General, Department of 
Homeland Security, February 28, 2019, https://www.oig.dhs.gov/sites/
default/files/assets/2019-03/OIG-19-24-Feb19.pdf (``Subsequently, 
Secretary John Kelly affirmed the designation during a Congressional 
hearing on June 6, 2017''); Chase Gunter, ``DHS secretary reaffirms 
support for voting systems' critical infrastructure designation,'' GCN, 
June 7, 2017, https://gcn.com/articles/2017/06/07/voting-systems-
critical-infrastructure.aspx (`` `I don't believe we should' back off 
on the critical infrastructure designation, [DHS Secretary John Kelly] 
told members of the Senate Homeland Security and Governmental Affairs 
Committee on June 6'').
    \38\ ``Statement by Secretary Jeh Johnson on the Designation of 
Election Infrastructure as a Critical Infrastructure Subsector,'' 
Office of the Press Secretary, U.S. Department of Homeland Security, 
January 6, 2017, https://www.dhs.gov/news/2017/01/06/statement-
secretary-johnson-designation-election-infrastructure-critical.
    \39\ ``Statement by Secretary Jeh Johnson,'' DHS.
    \40\ Election Infrastructure Security Resource Guide, Cybersecurity 
and Infrastructure Security Agency, U.S. Department of Homeland 
Security, May 2019, https://www.dhs.gov/sites/default/files/
publications/19_0531_cisa_election-security-resources-guide-may-
2019.pdf.
    \41\ Ibid.
    \42\ ``Statement by Secretary Jeh Johnson,'' DHS.
---------------------------------------------------------------------------
    In practice, this designation has resulted in many substantive 
partnerships and collaborations. For example, it ``enabled DHS to lead 
the formation of an Election Infrastructure Subsector Government 
Coordinating Council (EIS GCC) and the private sector's Election 
Infrastructure Subsector Sector Coordinating Council (EISCC) to serve 
as collaborative forums where the Federal Government, State, and local 
government officials, and the private sector can establish mutually-
recognized information sharing to prevent or mitigate the effects of 
incidents that undermine the integrity of or public confidence in the 
election system.''\43\
---------------------------------------------------------------------------
    \43\ Election Infrastructure Security Resource Guide, CISA.
---------------------------------------------------------------------------
    Congress should make this designation permanent to guarantee States 
are provided with priority access to tools and resources available from 
DHS and greater access to information on cyber vulnerabilities on a 
voluntary basis.
iii. Congress should provide consistent and reliable funding for 
        election security.
    A lack of financial resources presents the most significant 
obstacle to election security improvements in local jurisdictions. 
Congress took an important first step in 2018 by allocating $380 
million to States for election security activities, and there are 
promising signs of more funding coming in 2019. But these one-time 
investments are not enough to address the significant problems facing 
election systems or provide long-term stability for future election 
security planning. It is clear there is an on-going need for Federal 
funding to help protect our election infrastructure from foreign 
threats. As such, we recommend that the Federal Government increase its 
funding commitment to election security and invest in innovative 
approaches toward making elections more secure, accessible, and 
efficient.
    Because the threats to election security evolve over time, 
effective election security requires an on-going commitment of 
resources, as opposed to a one-time expenditure. Companies in the 
private sector have departments and budgets dedicated to security 
generally, and often to cybersecurity specifically, precisely for this 
reason. Congress should provide a steady stream of funding for the 
periodic replacement of outdated voting systems, upgrading of databases 
and other election infrastructure, and the purchasing of on-going 
technical and security support for all these systems.
    The Brennan Center has estimated the Nation-wide 5-year cost for 4 
of the highest-priority election security projects to be approximately 
$2.2 billion.\44\ This total includes estimated costs for: (1) 
Providing additional State and local election cybersecurity assistance, 
(2) upgrading or replacing State-wide voter registration systems, (3) 
replacing aging and paperless voting machines, and (4) implementing 
rigorous post-election audits.
---------------------------------------------------------------------------
    \44\ Lawrence Norden and Edgardo Cortes, ``What Does Election 
Security Cost?,'' Brennan Center for Justice, August 15, 2019, https://
www.brennancenter.org/our-work/analysis-opinion/what-does-election-
security-cost.
---------------------------------------------------------------------------
                               conclusion
    Election officials in Illinois and across our Nation have made 
great progress since 2016 in securing our elections. But in an era when 
Americans' confidence in our democracy is at stake and hostile nation 
powers are likely to continue to see American election infrastructure 
as a target, we cannot rest on our laurels. As one election official 
noted in an interview with the Brennan Center, ``we are trying to build 
the [protective] wall faster than our opponents are tearing it down.'' 
Doing so requires consistent, coordinated resources and leadership from 
all levels, including Congress, Federal agencies, the States, and local 
governments.

    Chairman Thompson. Thank you very much.
    I thank the witnesses for their testimony. I remind each 
Member that he or she will have 5 minutes to question the 
panel. I now recognize myself for questions.
    Part of Ms. Howard's comments spoke to the varying degree 
of ability of certain communities to finance the machines 
necessary to conduct the elections.
    Mr. Sandvoss, what has been your experience as to whether 
or not you have seen counties with the resources to do it on 
their own to buy additional equipment?
    Mr. Sandvoss. Well, my experience has been that, you know, 
the counties in Illinois vary along the largest and most--has 
the most resources and those who are small with very little.
    So I think there is not a one-size-fits-all answer to that. 
But I do think that the voting machines, as it was pointed out 
being as antiquated as they are, are going to have to be 
replaced relatively soon if for no other reason, like any other 
piece of equipment after a while it starts to break down. It 
starts to--its life expectancy is coming to an end.
    I think what we are facing right now is somewhat of a--you 
know, when I say we I mean the election authority community--is 
facing a little bit of a dilemma in the fact that voting 
machine manufacturers, while they can modify their systems--
your existing systems, they can use patchwork and what not to, 
you know, keep them secure.
    But we are all waiting for the voluntary voting system 
guidelines to be promulgated by the EAC. The voting system 
manufactures, my understanding is, are holding off on new 
development until they see those standards so they can 
manufacture the machines to those standards.
    Once those standards an enacted and the machines are 
starting to be produced and, of course, they have to be tested, 
that is when, I think, the resources is going to be more of an 
issue and I think that is probably going to affect all the 
counties because replacing the voting machines is not going to 
be--not going to be cheap.
    So once we are in a position to make a decision on 
purchasing those machines then I think big ask is going to take 
place.
    Now, if our legislature can foot some of that bill, that is 
great. I don't--I mean, Illinois, like probably many other 
States, is not in great economic shape. Hopefully, we are 
getting better.
    But even so, I don't know if that is a reliable funding 
source for the amount of money that it is going to take to 
replace all the voting machines.
    Chairman Thompson. Well, one of the challenges we have as 
Members of Congress is we have been a partner with State and 
locals in some of that acquiring of new equipment.
    But one of the problems we run into is we need to have 
standards, as you outline, in place so that vendors won't run 
out and just sell equipment just because it is new equipment. 
It needs to adhere to what we think the guidelines should be.
    Mr. Masterson, one of the concerns that we heard early on 
is whether or not the Russians or some of these other bad 
actors conducted mischief in our 2016 elections.
    What are you anticipating the potential for 2020 will be in 
the conduct of those elections?
    Mr. Masterson. Yes, thank you, Mr. Chairman, and I 
appreciate the question. As, I think, Mr. Sandvoss mentioned 
and Ms. Howard, we at CISA and Director Krebs have been clear 
that we view the threat to election security as on-going and 
that 2020 is absolutely a target for nation-state actors and 
others to explore vulnerabilities not just in the systems but 
create disinformation campaigns in and around the elections 
process, which is why our focus isn't just on the cybersecurity 
side, although that is our primary focus in working with State 
and local official, but also empowering State and local 
officials to talk to their voters about the security measures 
they have taken, the resiliency of the process, that ability to 
audit the process and manage risks to the systems so that 
voters can proceed with confidence.
    This is where our decentralized system is really effective 
because voters can engage directly with the folks that run the 
process in their community to ask the questions they have, to 
serve as poll workers, to watch pre-election testing of systems 
and really to understand the steps that are being taken to 
secure the process.
    So from our perspective, the targeting of 2020 could come 
in the form of cyber operations or simply disinformation, or a 
mixture, and we really want to provide the tools and skills for 
the State and local officials to respond.
    Chairman Thompson. Thank you. I have one additional 
question.
    Ms. O'Connor, you were quite clear about your system here 
in Lake County and I compliment you for it.
    Do you see the need either at the State or Federal level 
for additional resources that could be made available to you or 
what resources do you see as a local person you think the 
Federal or State government should provide to you as a local 
elected official?
    Ms. O'Connor. I think the most--to be honest, they provide 
us advice and services. But I am--I come from a background of 
education so I am a strong researcher and I believe in 
education.
    So I look to them for the newest methods, what is out 
there, how can they help us get there. So both State--the 
State--the Illinois State elections advisors have been so 
important to us.
    Whenever we have a question we turn to them. We ask them. 
They give us advice and that allows us to research the best 
practice in the direction in which we are going.
    Chairman Thompson. Thank you. I yield 5 minutes to the 
gentleman from Illinois, Mr. Casten.
    Mr. Casten. Thank you so much, Chair Thompson. Thank you, 
Congresswoman Underwood, for allowing me to waive onto this 
committee and thank you for doing this in Illinois.
    Given the hack that happened on our elections I think it is 
critical for us to let people know that we are actively working 
to fix this and thank you for having us out here.
    It strikes me that there is 2 ways--you know, democracy 
depends on people trusting that their elections represent the 
will of the people and there is 2 ways that we can frustrate 
that.
    One is we can go in and physically modify votes. The other 
way is we can do some sort of targeted suppression of votes. 
Certainly, in the pre-cyber era, I would submit to you that 
targeted suppression was much more prevalent.
    It is more cost-effective, if you will, in terms of time 
and labor whether through poll taxes or literacy tests or 
polling place location.
    My first question is for you, Mr. Masterson. In a cyber 
era, are you more concerned that hackers are going to come in 
and try to do more targeted suppression or are they--are you 
more concerned about physically altering individual votes?
    Mr. Masterson. Yes, thank you for the question, 
Congressman.
    From our perspective, as we analyze risk we certainly 
recognize that there is risk to the voting systems--those 
systems that both the voter interacts with and votes on and 
tabulates.
    But at the same time, we haven't seen and there is no 
intelligence to suggest the actual targeting of those systems 
or attempts to change votes.
    What we know is that adversaries are attempting to 
undermine our confidence in the democratic process including by 
creating doubt around a person's ability to participate, right.
    So we worked throughout 2018 and continue to work now to 
share information with State and local officials so they can 
engage with their voters on simple messaging.
    Understand, are you registered to vote before you head to 
the polls? Where are you registered? Where is your polling 
place? What is on your ballot? What can you expect to 
experience when you enter the voting booth and engaging 
directly with those who run the process?
    Because the more voters know, the more attempts to 
discredit the process or to provide incorrect information to 
them, they have trusted sources of information at both the 
State and local level to combat that information, right--to go 
check the correct elections information and make sure that they 
are empowered to participate in the process.
    So it is twofold, right. We worry about the infrastructure 
but we certainly worry--engage actively with State and local 
election officials on countering messaging around the elections 
process and, again, driving those voters to trusted sources of 
information--your State and local officials--to validate the 
information you need about that.
    Mr. Casten. So I want to follow up with a second question 
but I just want to make sure I understand. So are you--do you 
think we are proportionately spending enough time on 
suppression as opposed to changing votes?
    Mr. Masterson. I think proportionately we--so we think 
about it as a hybrid threat, right?
    Mr. Casten. Sure.
    Mr. Masterson. So there is concern about the 
infrastructure. Certainly, upgrading voting machines, having 
good consistent post-election audits, which counters that 
initial risk concern that you have laid out, is critically 
important to us and prioritized.
    But equally important----
    Mr. Casten. I am sorry. I just want to cut you off because 
I know that Madam Underwood momentarily----
    Mr. Masterson. No, I apologize, sir.
    Mr. Casten. Mr. Sandvoss, as you think about the attack on 
Illinois' voter files in the last election, I can see how that 
could have led to voter suppression, especially if I can target 
those votes and if I can go in and modify which, thankfully, we 
don't think happened.
    I have a hard time seeing how that would change votes. 
Should I be--in light of that, is it reasonable for us to be 
concerned about attacks on voter suppression in Illinois versus 
changing votes, since that seemed to be the big attack in 2016?
    Mr. Sandvoss. Yes, I think from what happened in 2016, you 
know, there was no evidence that votes were changed, which was 
certainly fortunate.
    Our registration system--I think there is some 
misunderstanding amongst the--you know, the general population 
as reflected by some of the questions that we get.
    That is, is that the registration system is completely 
apart from the vote tabulation system. So even if the bad 
actors were to have manipulated the voter registration data, it 
wouldn't have impacted the actual counting of the votes.
    So I think that point needed to be made.
    Mr. Casten. But, potentially, it might have meant that when 
you showed up at your polling place you weren't a registered 
voter?
    Mr. Sandvoss. Well, here is the--one of the advantages of 
having a decentralized system is that each election authority 
has its own voter registration database, if you will, for their 
particular county.
    So if voters came in, even if ours was compromised, they 
are going to be using theirs to determine whether or not a 
person is registered to vote and if they are where their--what 
precinct they would be voting in.
    So unless a hacker were to get into their voter 
registration system and run amok, I don't think what happened 
to us would have impacted at the county level on Election Day.
    Our system was hacked back in June and into July whereas 
the election was in November, so at least we had some time, you 
know, to----
    Mr. Casten. I think--I think I am out of time so I will--I 
will thank you and I will yield back.
    Chairman Thompson. Well, we are a little--you can have more 
time if you want----
    [Laughter.]
    Chairman Thompson [continuing]. Since we are in Illinois.
    [Laughter.]
    Chairman Thompson. Yes, we--OK.
    Mr. Sandvoss. I am sorry. Then the second--the other part 
of your question was voter suppression and being concerned 
about that or----
    Mr. Casten. Yes. Really, just asking for your thoughts of 
whether the--whether the attack on--you know, at that higher 
level.
    You know, there is the attack on the voting machine, which 
I think in public's mind we think about, and then there is the 
higher level attack on the actual election files.
    In my small brain, if I am a hacker, that attack on the 
election files feels to me like something that could be a 
targeted suppression attempt. But doing that before an election 
I have a hard time seeing how that would have led to a changing 
vote.
    So my question, really, is whether you--whether you would 
agree with the conclusion in my small head.
    Mr. Sandvoss. I would--yes, I would agree that it would 
not--the targeted suppression or the resulting targeted 
suppression from the attack on the database, in my opinion, 
would just be more toward the system as a whole.
    In other words, if the voter registration system could be 
infiltrated by foreign actors, does that mean that the whole 
election could be manipulated by these same foreign actors.
    I can see where that perception could be out there and, 
again, perception is reality. Even though we know that it 
couldn't have happened the way it was perceived that it could 
happen because, again, there is no--there is no direct link 
between our voter registration system and the tabulation of 
votes.
    But if people think that oh, elections is one big process 
inside a machine and that machine got hacked, they could say, 
heck, why should I bother voting because, you know, if it is so 
easy to hack then maybe my vote is not going to count, and that 
is where the danger is.
    I think that is what the focus is going to be on in 2020 
is, you know, through education, as Ms. O'Connor pointed out, 
educating the voters by saying that, hey, you might hear 
stories of targeted attacks on a voter registration system but 
that doesn't mean that your vote is not going to count.
    Your vote is going to count, and that, I think, you know, 
needs to be, you know, impressed upon the general electorate so 
that they, you know, don't lose confidence in the integrity of 
the election. I think that is what our big concern is.
    Mr. Casten. Thank you. I yield back.
    Chairman Thompson. Thank you.
    I now recognize the Vice Chair of the full committee, the 
gentlewoman from Illinois, for as much time as she deems 
necessary.
    Ms. Underwood. Oh. Well, thank you, sir.
    [Laughter.]
    Ms. Underwood. I will ask the question. Thank you so much.
    So I want to start with Ms. O'Connor. Thank you again for 
appearing on our panel today. I really appreciate your 
expertise and your work here in Lake County.
    In your opinion, do you believe that voters and our 
election infrastructure are well-prepared here in Lake County 
ahead of 2020?
    Ms. O'Connor. Absolutely. I truly believe that we are well-
prepared. I am very confident. We want our voters to be 
confident in our system and I believe that they are.
    Lake County moves forward not only using all of the 
resources that are provided. We research to find out other 
avenues that we can learn and excel in, but also we are 
proactive in educating our voters.
    Our system, even within our office--when somebody calls our 
office, for example, they don't go into a waiting spot. They 
are--they are streamlined through the office where they are 
always--the call is always answered by a live person and their 
questions are answered.
    This is very important to us because we believe that every 
question is important, and every time we answer somebody's 
question we believe that we have educated a family--a group--
not just one.
    There are many vectors of misinformation that are out there 
concerning elections. When I go speaking to different groups I 
continually get similar questions and my goal is to educate.
    Our office's goal is to educate people with an 
understanding that what we are doing is correct and they should 
be confident that their vote is going to count. Every vote is 
going to count.
    Ms. Underwood. Thank you.
    So can you tell us a little bit about the Cyber Navigator 
Program, from your perspective, and specifically if we were to 
make improvements of--you know, if the Federal Government was 
going to scale up the program Nation-wide or authorize more 
money for States like Illinois to deploy locally, what 
improvements would have that--has that program enabled Lake 
County to make locally and what improvements would you 
recommend to the program?
    Ms. O'Connor. Absolutely. Again, like I said before, that 
we are very fortunate because our office is in the Lake County 
government building so we also have the technology advancements 
and support from the IT experts within the Lake County 
building.
    But what we are receiving through our survey and how we are 
adapting to update our programs and move forward and advance is 
I consider stellar because I always like to look at our program 
as--this is a very general idea but I like to put it in very 
layman's terms because I know we always speak the language.
    An election is often very language-motivated, but I like to 
say that often we are looked upon election as a castle and in 
our area we have the moat of our county building security.
    But then we have the dragons of the State and the 
National--and also supporting us and giving us additional means 
and ways to protect our vote and our office.
    Ms. Underwood. Thank you.
    Mr. Sandvoss, what benefits does the Cyber Navigator 
Program offer the county election officials specifically in 
those counties where they have limited budgets at that local 
level, which forces them to make difficult resource allocation 
decisions?
    Mr. Sandvoss. I think the benefits that the Cyber Navigator 
Program or cyber navigators themselves provide to the election 
authorities is the introduction of a--like a whole new way of 
thinking, and even those that have IT departments, I think, you 
know, prior to the Navigator Program, even prior to 2016, were 
probably not focused as much on cybersecurity as they should 
have been, through no fault of their own.
    I mean, cybersecurity, to us--you know, we had basic levels 
of security but, you know, when it comes to what was really 
needed there was nowhere near enough.
    So I think what the navigators are doing is providing that 
education to the local jurisdictions and the ones that have 
more limited resources, which is to say they have no IT 
department at all, I think they are the ones that are providing 
probably the most benefit to, well, I will say the election 
authority community because, you know, the ones that are the 
most vulnerable it goes back to the chain being as strong as 
its weakest link.
    I think what they are doing is they are introducing to the 
local election authorities, you know, basic concepts of 
security but then, you know, taking it through step by step by 
analyzing what is going to be needed in order to be as secure 
as they possibly can be.
    I think that is probably the primary benefit that they 
provide.
    Ms. Underwood. What proportion of the 108 jurisdictions--
local election jurisdictions--would you say don't have that 
baseline of IT capacity or cybersecurity capacity?
    Mr. Sandvoss. To be quite honest, I can't give you a 
percentage because I just don't know. But, you know, 
anecdotally speaking from, you know, some of the hearings that 
we have conducted over the past couple of years, I think maybe 
two-thirds.
    Ms. Underwood. Really?
    Mr. Sandvoss. Yes. When I say that, I mean don't have full-
time IT divisions. They may have a--through their vendor they 
probably have a person on contract that can go in and perform 
IT services.
    So I guess in that respect you could say everybody has at 
least one person that they can rely on. But if you are talking 
about an actual IT department with full-time employees, I mean, 
that would be my guess.
    Ms. Underwood. OK.
    Mr. Sandvoss. I mean, I could certainly find out and get 
back to you on that.
    Ms. Underwood. Sure.
    Mr. Masterson, did you have anything to add on that in 
terms of proportions in our State or across the country?
    Mr. Masterson. Yes. So I don't--again, anecdotally, I don't 
have specific numbers. But it is not uncommon for many 
counties' IT departments to have to support more than just the 
elections department if there is even a dedicated IT 
professional for the county.
    In some counties across the country it is actually 
contracted out to private-sector vendors as well.
    To your question, ma'am, if I may, on the cyber navigators, 
that hands-on keyboard both risk analysis and support is really 
critical.
    We know the steps that need to be taken to harden our 
system's network segmentation two-factor authentication--all of 
those controls.
    It is a question of how do we get that support, and I think 
what Illinois has done here is innovative and really helpful to 
those counties.
    Ms. Underwood. Thank you.
    Back to Mr. Sandvoss. Have there been any challenges 
deploying the cyber navigators to all 4 of the geographical 
election authorities in Illinois?
    Mr. Sandvoss. I think the biggest challenge was probably 
selecting the right people to be the navigators because at 
first you think of cyber and you think of--you know, you want 
people who are well-versed in IT and all the jargon and all the 
software and the hardware and what not, which, of course, is 
very important.
    But since you are basically selling a concept to the 
election authorities, you needed to pick people that have not 
only the technical skills but the people skills--the ones that 
can go into a jurisdiction and not blind them with science but, 
rather, approach them in layman's terms, saying, OK, here is--
first of all, I am here to help.
    Second of all, you know, if you--you know, may I take a 
look at your systems. In other words, approach it from a 
standpoint of mutual respect as opposed to just giving orders 
from on high, and I think that was probably the biggest 
challenge.
    But the second probably biggest challenge is, again, 
convincing all the jurisdictions that this is something that 
you have to take seriously and that even though cybersecurity 
up to now has been a remote or a foreign concept, it can't be 
thought of anymore like that because, again, you don't want to 
be that county on Election Day that the system collapses 
because you didn't do everything that you could have, and that 
was probably----
    Chairman Thompson. Will the gentlelady yield?
    Ms. Underwood. Yes, sir.
    Chairman Thompson. One of the challenges we have is 
building the talent locally so those jurisdictions can do 
exactly what you are talking about. The challenge more so is 
the over-reliance on vendors versus the capacity.
    So what happens is if Lake County didn't possess the 
resources and talent internally, they would have to rely on an 
outside vendor and that vendor may or may not be what you need.
    But what we are trying--grappling with in Washington is how 
do we come up with some standards that we all can agree that 
every election system should have in order to be verifiable.
    So the public policy issue for us is not to say Vendor X, 
Y, or Z, but we should say an election system in order to be 
verifiable must have 1, 2, 3, and that is the--that is where we 
are because we want to make sure that our system of electing 
our leaders is as honest and accurate as possible.
    So to some degree, we put money out to States and locals as 
a carrot for coming and doing that. But, again, it is a 
partnership from the Federal, State, and local level and I 
think Ms. Howard's testimony--written testimony said it would 
cost us about $2 billion to replace the machines around. That 
is a lot of money. Illinois might be----
    [Laughter.]
    Chairman Thompson [continuing]. The exception. But I want 
you to kind of talk a little bit about how you came up with 
this $2 billion amount as a cost.
    Ms. Howard. Yes, sir. Thank you, Mr. Chairman.
    So our $2.2 billion estimate is the cost for 4 of the 
highest-priority election security measures that we have 
identified.
    So that includes approximately $750 million to replace the 
antiquated and paper coding machines across the country and I 
think Mr. Dietrich at the Illinois State Board estimated that 
the cost to replace the antiquated equipment here in Illinois 
would be approximately $175 million.
    Our $2.2 billion estimate also includes $100 million for 
audits over the next 5 years, approximately $500 million for 
voter registration infrastructure and cybersecurity 
improvements, and approximately $830 million to deploy, in 
essence, the Cyber Navigator Program that you have here in 
Illinois across the rest of the country.
    Chairman Thompson. Thank you. I yield back.
    Ms. Underwood. Thank you.
    So my next question is for Ms. Howard. In the report that 
you co-authored you mentioned 2 underfunded election security 
projects in Illinois--the adoption of countermeasures for 
security vulnerability identified through the risk and 
vulnerability assessments and legacy voter and system 
replacement, which we talked about a few times here.
    Can you expand on your research and do you have any 
specific recommendations as to how Illinois can address those 
needs?
    Ms. Howard. I think, you know, as you mentioned, in 
Illinois the 2 unfunded election security projects that we 
identified in working with State and local election officials 
were, you know, deploying additional counter-measures based on 
the findings of the local cyber navigators and to replace the 
legacy voting equipment.
    So these priorities are exceptionally important for a lot 
of reasons and I think that, you know, you can address these in 
Illinois promptly, and in Illinois you have a decentralized 
system.
    So every county is going to be able to decide when and what 
type of equipment they are going to purchase when they purchase 
new equipment and I understand that Cook County has recently 
moved forward with purchasing new equipment and Macoupin County 
has recently decided to move forward and purchase new 
equipment. So it is moving forward on a county-by-county basis.
    Ms. Underwood. I see. Thank you.
    So the Senate Intelligence Committee has noted that 
election systems that use these optical scanners to review 
paper ballots are the least vulnerable to cyber attacks, and I 
understand from Ms. O'Connor that that is what Lake County uses 
as well.
    What vulnerabilities are associated with the use of 
electronic voting systems without the optical scanners and then 
how many States would you say Nation-wide are using paperless 
voting machines in 2020?
    Ms. Howard. Thank you for your question.
    As you have heard today, the auditability of a system is an 
integral component of making it a resilient system and 
auditability is just a critical step that all of our systems 
need to have.
    When you use a direct recording electronic, a DRE--a 
paperless DRE system, you cannot conduct a robust post-election 
audit on that. So that is the concern that we are looking at.
    Right now we estimate that in 2020 there will be 8 States 
that continue to use paperless voting equipment as their 
primary voting equipment in one or more counties and those 8 
States are Indiana, Kansas, Kentucky, Louisiana, Mississippi, 
New Jersey, Tennessee, and Texas.
    Ms. Underwood. Thank you.
    How much funding would the Federal Government need for the 
full--that is the $750 million you said--and then of that $750 
million how much did Illinois get to make these changes that 
you recommended?
    Ms. Howard. So it is going to depend upon the vehicle that 
Congress uses to deploy these funds. So if it is based on 
whether or not the State needs to replace antiquated or is 
using equipment that is more than 10 years old, the total 
number is going to be a little bit different than if you used 
it through the current HAVA formula.
    Ms. Underwood. I see. But it would need to be robust by 
then?
    Ms. Howard. Yes.
    Ms. Underwood. OK. Thank you.
    So in preparation for this hearing I asked our constituents 
in the Illinois 14th about their thoughts on what we should be 
doing to secure our elections.
    Within a matter of days, my office received 258 responses 
from people all over the 14th District. Election security is, 
clearly, at the forefront of people's minds here in district.
    So I want to use the remainder of my time to bring forward 
some of those constituent questions. The first is from Ryan 
from Oswego, Illinois, and this is to Mr. Masterson and Mr. 
Sandvoss.
    What steps are being taken to prevent this structured query 
language, or SQL, injection attack from occurring again? For 
the folks here, it was that type of attack that the Russian 
operatives used in 2016 to penetrate the State Board of 
Elections.
    Mr. Sandvoss. Well, I would--the step that we took is we 
closed the portal in which the SQL injection entered into our 
system.
    It was a design flaw in the paperless on-line voter 
registration application system where the voter is--checks to 
see what their registration status is and there was a window 
there that should have had a restriction on the number of 
characters, and for whatever reason that feature wasn't on 
there.
    Ms. Underwood. I see.
    Mr. Sandvoss. So we discovered what had happened pretty 
quickly and immediately corrected it. I would say, going 
forward, we have--we conduct risk assessments in penetration 
testing, which basically bombards our system with different 
types of malware, including SQL, just to see if there is any 
other open windows, so to speak, and so far we haven't found 
any.
    So that is--I mean, you still check on a regular basis just 
to make sure. But that is--that is the steps we have taken.
    Ms. Underwood. That is great.
    Then Peter from Island Lake had a related question--should 
there be a hard-copy back-up for all Illinois elections in case 
of hacking and do we have an emergency response team in our 
State in case hacking is detected?
    Mr. Sandvoss. As far as the second part of the question, I 
would say we do have an emergency response team. I think it is 
a cooperation effort between the State Board of Elections, the 
State-wide Terrorism Information Center. We are working with 
the DHS as well as the National Guard.
    So I think that we would have personnel that are ready to 
go on a moment's notice responding to a cyber incident before, 
during, and right after the election.
    Ms. Underwood. Thank you.
    Mr. Sandvoss. So--I am sorry, what was the first part of 
the question?
    Ms. Underwood. The hard-copy back-up of all elections.
    Mr. Sandvoss. Yes. I mean, a hard copy could be produced. 
It probably would be a good idea to have.
    I guess the only problem with that is that now that we have 
grace period registration, same-day registration, that list 
would constantly be changing.
    So at what point do you print the list or have the back-up? 
Because every day it could be different. Somebody could be off 
the rolls, on the rolls, and so you would have a lot of 
supplemental lists.
    But I guess, in general, if there was a major hacking 
incident and the whole registration--the electronic part of it 
went down, having a paper back-up would be--would be useful.
    Ms. Underwood. OK.
    Mr. Masterson.
    Mr. Masterson. Yes, just very quickly, ma'am. Thank you for 
the question.
    Certainly, taking regular backups both on-line and off-
line, understanding where those dependencies are is absolutely 
critical, and then having an incident response plan and 
exercising that plan.
    So implementing those back-ups and knowing they are going 
to work when you need them is something we recommend and work 
with through tabletop exercises and other work with the State 
and local so that there is that plan in place and they can 
actively respond if something occurs to whether the voter 
registration list or other systems.
    Ms. Underwood. Did you want to mention the EIISAC that 
could be maybe not the emergency response but certainly does 
help----
    Mr. Masterson. Yes----
    Ms. Underwood [continuing]. States and municipalities----
    Mr. Masterson. Absolutely. So the EIISAC provides both 
information sharing and response. DHS CISA provides incident 
responders both remotely but also that can deploy and get 
operations back up and running to mitigate the impacts of a 
cyber attack. So we have any number of resources that we could 
bring to bear, and thank you for asking that.
    Ms. Underwood. Sure. OK.
    So Paul from Naperville wants to know, is there any way to 
know if my personal voting information has been compromised?
    Mr. Sandvoss. Assuming he is referring to the 2016 database 
breach, he would have been notified.
    Ms. Underwood. OK.
    Mr. Sandvoss. If there was enough information that we could 
determine a specific voter, we were required by law to notify 
that voter and we did, and then we provided the voters who were 
affected with options or resources that they could use to 
determine whether or not the information was improperly used.
    To my knowledge, I don't think that anybody suffered any 
type of loss as a result of--like, economic loss as a result of 
the hack or if they did they haven't come forward to us and 
reported it.
    Ms. Underwood. So we haven't spent a lot of time here today 
talking about social media companies, the misinformation, 
disinformation. Congressman Casten raised it during his line of 
questioning earlier and I think that that is an important piece 
of this.
    So I want to know from Ms. O'Connor do you all have any 
kind of capacity to do anything on-line to combat that 
misinformation or are you more relying on people if they have a 
question to proactively reach out to your office?
    Ms. O'Connor. We do that--we do it. We are very involved in 
social media from our office. So we are always delivering, you 
know, correct information, you know, on our Facebook page and 
all that--the modern social media aspects that today's world 
has.
    So, again, our office believes in this educating and if 
somebody asks a question on our Facebook page we will correct 
them. You know, so in that respect, yes, we are involved in 
social media.
    Ms. Underwood. OK.
    Ms. O'Connor. Yes, we are active in correcting and 
educating our constituents.
    Ms. Underwood. Awesome. Do you all have recommendations for 
how people should flag misinformation or disinformation? Do you 
all receive it at the State Board of Elections or is CISA doing 
anything in that respect as well?
    Mr. Masterson. So I can start. So yes, absolutely. We have 
direct lines of contact with all the major social media 
companies.
    Throughout 2018, State election officials and local 
election officials reported activity that we were able to pass 
on not just to the platform that had the activity but to all 
the platforms so they could look to see if it was cross-
platform activity.
    We don't recommend any actions to take on the activity but 
we are able to pass it on and say, here is activity that has 
been reported to us. Here is the contact for the State or local 
election official reporting it.
    I will say when it comes to responding to disinformation 
around the elections process of misleading on where to vote, 
when to vote, things like that, the social media companies took 
a very aggressive posture and have published policies about 
takedown processes regarding that kind of activity and we are 
able to push that to them.
    Ms. Underwood. So Christina from Batavia wants to know, is 
there anything that citizens should watch for on social media 
that might be signs of intrusion or election interference?
    Mr. Sandvoss. Well, I guess it depends on how knowledgeable 
a given person is with respect to voting procedure. I mean, 
if--obviously, if you see something that says oh, Election Day 
has been canceled--voting will start, you know, a week from 
today or something like that, you know, if it raises a red 
flag, if it doesn't make sense, if it just seems not right, we 
are going to encourage people to report it. You know, if you 
see something say something. So it is those types of things 
that----
    Ms. Underwood. Report it to you or report it to the 
platform?
    Mr. Sandvoss. Well, right now I think we are trying to 
decide how we are going to do that.
    Ms. Underwood. I see.
    Mr. Sandvoss. Yes. We haven't solidified that yet. But I 
think the idea will be to communicate it probably to us and 
then we would distribute it to our partners and then it would 
some--you know, it would eventually make its way to these--
whatever social media company it originated from to get it 
corrected.
    So it is examples like that that we are going to try to, 
you know, to put out and are included in our, you know, PR 
campaign, if you will, you know, trusted source and, first of 
all, you know, trusted source--specific county clerk or the 
Board of Election Commissioners or the State Board of 
Elections.
    So if you see something that doesn't, you know, purport to 
be from an official Government agency, question it and then, 
second, like I said, if it just doesn't smell right, you know, 
say something.
    Even if you are wrong doesn't matter. You know, at least it 
is communicated and you are being vigilant. So we are going 
to--we will, you know, put out basic things like, you know, no, 
there is no internet voting.
    So any website that purports to say, you know, vote over 
the internet, ignore it. It is wrong.
    Ms. Underwood. Right.
    Mr. Sandvoss. You know, voting--you know, Election Day is, 
you know, November 6 or 5 or whatever day it is. You know, if 
you get a post that says Election Day has been postponed or, 
you know, Democrats vote on Tuesday and Republicans vote on 
Wednesday--things that just don't make sense, you know, please, 
you know, alert us to that and we can get that--we can get that 
taken care of.
    Ms. Underwood. One of the students who is here had a 
question. It is J.R.--I don't know which one is J.R. Do you 
think that it is going to be a recurring problem of other 
countries interfering with United States Presidential elections 
as well as distributing propaganda on social media?
    So we talked about how the cybersecurity piece we knew was 
going to be a recurring threat. But just to put a pin in it, do 
we think that this social media disinformation will also be a 
recurring theme for 2020 and beyond?
    Mr. Masterson. Yes, absolutely. I mean, the attempts by 
adversaries to undermine confidence in our democratic 
institutions as a whole is an on-going and robust effort from a 
variety of adversaries.
    So absolutely. We view 2020 as a prime target for that as 
well as other democratic institutions.
    Ms. Underwood. Awesome. Well, I can't stress enough the 
importance of today's hearing and the educational benefit that 
it has provided to our committee and to the public.
    As I said before, the election is around the corner, less 
than 6 months until the primary, and we have to seize on every 
opportunity to have meaningful conversations like this one.
    Thank you, and I yield back.
    Chairman Thompson. Thank you.
    Mr. Casten has some additional questions.
    Mr. Casten. Thank you.
    The--so I want to follow on--pick up some of what I was 
asking before about the sort-of targeted suppression angle in 
addition to changing votes and I--I am not a IT expert by any 
stretch but I spent 16 years as the CEO of energy companies, 
first as a manufacturer of power generation equipment and then 
running utilities.
    A part of our job was to figure out where the 
vulnerabilities were and close those doors, which is why--which 
is why I am, at least, personally hypersensitive to this issue.
    There is one question of how you suppress votes. There is a 
separate question of how you target them. Having recently won 
my first-ever election, it struck me that the--a campaign 
office is a beautiful place to hack into that election system 
because you have got tens, hundreds, in Congresswoman 
Underwood's case and I, thousands of volunteers showing up in 
uncontrolled offices, papers all over the place, and doing 
something that by its nature is partisan, which means that 
sometimes getting National support is a little less than it 
should be.
    Mr. Masterson or Ms. Howard, I wonder if you have thoughts 
on are we doing enough to secure the voter data on the campaign 
side of what we do up on this side of the dais and, if not, 
what can we do more at a National level so that all that 
doesn't fall on campaigns or political parties to provide that 
protection? Because if I have that data I know exactly who to 
target.
    Ms. Howard. I think Matt may be better to answer this 
because he--they work directly with campaigns and candidates.
    Mr. Casten. OK.
    Mr. Masterson. I appreciate the question, and we have been 
working with DNC and RNC in campaign committees as well as 
individual campaigns in both outreach with information sharing 
and the same support and services that we offer for free to 
State and local election officials are available to these 
campaigns, all with the goal of managing the rest of their 
infrastructure.
    Specifically to voter data, a big part of the voter 
registration data is publicly available already, right. That is 
how campaigns get a lot of it. So it is understanding what 
additional data is there and how they can secure that data, 
working with vendors primarily, right.
    So understanding the third-party risk, and then managing 
that human element is a huge part of managing campaign risk, 
right.
    So you hit on it directly, Congressman, and that is that 
there is volunteers, pop-up employment opportunities throughout 
campaigns and so how do we build-up resilience in the people 
engaged in the campaign work through phishing campaign 
assessments, through targeted education campaigns. So we have 
worked very closely with the campaigns to try to raise that 
awareness.
    We created a very simple election campaign security 
checklist that we worked with both DNC and RNC on and then 
pushed it out through their channels in order to just give the 
simple steps that whether you are a volunteer or the candidate 
yourself that you can take to manage the risk to your systems, 
personal devices and otherwise, to protect that data that you 
have whether it is voter data or just important campaign 
communications, right.
    Mr. Casten. My sense is that that--my experience is that 
that was more an opt-in than an opt-out program, right, because 
you still have volunteers showing up with their own computers. 
You know, by design you are not using a Government computer 
that has been Government-secured for those.
    You know, I think, you know, we certainly tried to do a lot 
on our end but, man, it felt like a hole to me. Is there a way 
to make that an opt-out program?
    Mr. Masterson. So all of our services, all of our support 
are voluntary and so it is really a question of, how we can 
best engage with the campaigns to either get that information 
out or the support and services?
    I will say that both the RNC and DNC, in working with them, 
have taken a lot of actions, a lot of engagement opportunities 
with their campaigns and others to build that awareness.
    But it is a big challenge for many campaigns and, candidly, 
it starts with the candidate. When the candidate prioritizes 
cybersecurity in a campaign, the rest of the campaign 
prioritizes.
    Mr. Casten. Ms. Howard.
    Ms. Howard. Thank you. I would just add that the Federal 
Election Commission has been working with nonprofit 
organizations on options to provide cyber assistance to 
campaigns free of charge.
    But, as you know, there is no quorum currently at the FEC 
so this is a problem.
    Mr. Casten. Mm-hmm. So I want to touch on something that 
Congresswoman Underwood raised. The social media question, to 
me, is less about does somebody say that is false on social 
media, do they get bad information as much as does that 
information then atomize and go out?
    So the--you know, what Russia did in the United States in 
2016 was not substantively different. It is different by scale 
but wasn't substantively different from the way they did it in 
Estonia or in Georgia or even in their own country.
    They create social media campaigns to establish that voters 
cannot trust their institutions and at that point the 
institutions are weakened because that is Russia's national 
agenda.
    That is a hard genie to put back in the bottle in a very 
atomized media environment. But my question really for all of 
you is that we, as public officials, have a duty to make sure 
that our election systems are as robust and protected as 
possible.
    We also have the bully pulpit, and if we--if we exaggerate 
this fear beyond a reasonable level, the risk is that people 
might say, well, look, you know, all of these Members of 
Congress what they are saying, you can't trust your election 
system, in which case the Russians have exactly what they want.
    So you 4 who are experts in this, how would you like to see 
us as public officials talking about this issue in a way that 
is both responsible and focused on closing barn doors where 
they are open but doesn't in any way over-stoke the fear beyond 
what is reasonable?
    Mr. Sandvoss. Well, I will speak from my experience and, 
granted, this isn't coming from, you know, elected Members of 
Congress. This is coming more from the DHS.
    But it is certainly appreciated as the communication of the 
threats that are out there so that we know what is to expect 
and then we, at the State level, can decide how we want to 
present that to our general public.
    I agree, it is a fine line between being--you want to 
project an aura of confidence because--I get this question all 
the time, how confident are you in the security of the 
elections leading up to 2020?
    I want to say that I am confident but I don't want to sound 
like I am overconfident because then--you know, I know that 
systems can get hacked into and I know that, you know, foreign 
actors can engage in misinformation that could be successful.
    So to make a prediction that I know might not come true 
would be kind-of silly. By the same token, you want to project 
an attitude of confidence that at least, hey, we are doing 
everything we can to, you know, make the elections secure.
    We think they will be secure. Your vote--we think it will 
count. I mean, not say think. We know it will count. Then, you 
know, just--you know, put people's minds at ease.
    I mean, obviously, there is a threat. Everybody knows it. 
But try to put their minds at ease and, to me, it is no 
different than anything else one might do.
    I mean, are you going to not go outside because you risk 
getting hit by a car or not fly because you think your plane is 
going to down?
    People still live their lives and I think, you know, with 
voting it should be the same way that, yes, there is risks. 
Yes, something could happen.
    It might result in a line and it might result in me having 
to cast a provisional ballot. But, ultimately, at the end of 
the day, my vote is going to count and I think that is the 
message we want to send.
    Ms. O'Connor. I am just going to comment that we work 
really hard to develop a trust and that, to us, is significant. 
We inform our citizens when we go to conferences, when we go to 
workshops.
    For example, the Illinois workshop for clerks we talked 
about at that workshop how we have a back-up plan. We talk 
about our assessments. We are educated on what we should do 
next.
    But we also look at each other as a community of Illinois 
clerks or as a community of clerks Nation-wide, and I think 
that is important because we communicate our ideas.
    For example, I will get calls from other clerks saying, you 
know, what are you doing for this--how are you sending that 
information--can you share it.
    We are a community of clerks within the State of Illinois 
and I think that is very crucial because as we move forward in 
that, you are not only developing trust but you are also 
developing a huge network of support.
    Ms. Howard. I would say that I agree that there are 2 
distinct issues, right--attacks on our infrastructure versus 
disinformation and trying to suppress the vote. But I think 
that they are linked.
    Part of what they do with their disinformation campaigns is 
to exploit the concerns that people have about our 
infrastructure and investing in our infrastructure to 
strengthen it and to inform the public, right.
    But it can withstand attack is a very important piece of 
this and kind-of, you know, looking back. I think Illinois 
election officials have really been pioneers in discussing this 
issue in an open and frank manner and have really helped 
election officials across the country figure out what is going 
to work for them as far as, right, striking the right balance 
between being honest and forthcoming about what is going on, 
right, but still ensuring that people have confidence in their 
voting system.
    Mr. Masterson. Just quickly, sir--I really appreciate your 
question. I think Americans--most Americans have been impacted 
by cyber incidents, right. So they recognize there are 
vulnerabilities in systems.
    So having an open discussion about what vulnerabilities may 
exist, what steps the folks at this table are taking to address 
those vulnerabilities, what more could be done to improve the 
resilience of the process.
    All of us should be engaging voters in those conversations 
so that they can understand. They are not--they are not going 
to believe if you say everything is fine because they have been 
impacted by incidents like that.
    Then talking very candidly between Members of Congress and 
election officials--it is why I appreciate this hearing so 
much--so that you can understand how they view the risks, how 
they talk about the challenges to the process and have built 
resilience, whether it is through auditing, through a 
provisional balloting process, and then engaging your 
constituents in what steps they can take.
    Because it really is--as the Chairman said, it is a whole-
of-government but it is a whole-of-Nation response and they--
voters have the ability to ensure that their registration 
information is up-to-date and correct, that they know their 
polling place, what is going to be on the ballot--that they 
know they have a right to a provisional ballot such that if 
there is a problem at the polls they can still cast a vote and 
know and actually get the information from the State that their 
vote was counted as cast is critically important.
    So I think an honest discussion about both the risks in the 
process, the vulnerabilities, but also the steps that have been 
taken and continue to need to be taken is really critical as we 
move forward.
    Mr. Casten. Thank you. I yield back.
    Chairman Thompson. Thank you. Yield additional questions to 
the gentlelady from Illinois.
    Ms. Underwood. Yes. Great conversation. Thank you, Mr. 
Chairman.
    It dawned on me that we did not talk about the results--the 
notification of the findings and making sure that there is a 
trust that those findings are correct.
    Have you all identified any vulnerabilities within the 
State of Illinois' reporting systems or across the country, and 
if anybody could just characterize any steps that are taken to 
ensure that not just the votes are counted but as they are 
reported on Election Night the American public can trust those 
findings to be correct.
    Ms. Howard. Thank you for the question.
    I think your question goes to the--again, the auditability 
of the system. So right now we have 24 States, we estimate, in 
2020 that will conduct post-election audits before 
certification using the paper ballots, right.
    Again, to go back to your question of confirming that the 
winner actually did win the election. We think, while Illinois 
conducts what is called a traditional post-election audit where 
they look at a predetermined percentage of votes cast in 
particular polling locations, that there is a better method.
    We think the risk-limiting audit would answer the questions 
that you have and that lots of other voters have, and that it 
is something that, you know, we hope to work with Illinois 
election officials on in the future.
    Ms. Underwood. Thank you. Thank you all.
    Yield back, Mr. Chairman.
    Chairman Thompson. Thank you.
    Well, let me thank our witnesses for their valuable 
testimony and the Members for their questions.
    The Members of the committee may have additional questions 
for the witnesses and we ask that you respond expeditiously in 
writing to those questions.
    But I can say from the witness testimony so far as Illinois 
is concerned and Lake County specifically you are headed 
absolutely in the right direction.
    From our vantage point in Washington, you are doing exactly 
the kind of work that we envision the rest of the country 
should do and we encourage that.
    We go back to Washington this afternoon with a new sense of 
hope that the investment we put in under the HAVA last payment 
we can, hopefully, get new money into the system to give 
greater capacity to the State and locals toward improving their 
system of elections.
    So hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 11:38 a.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
